<html>
<title> - THE DEVIL THEY KNEW: PFAS CONTAMINATION AND THE NEED FOR CORPORATE ACCOUNTABILITY, PART II</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                          THE DEVIL THEY KNEW
                    PFAS CONTAMINATION AND THE NEED
                 FOR CORPORATE ACCOUNTABILITY, PART II

=======================================================================

                                HEARING

                              BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2019

                               __________

                           Serial No. 116-58

                               __________

      Printed for the use of the Committee on Oversight and Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov                        
                        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-952 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Paul A. Gosar, Arizona
Wm. Lacy Clay, Missouri              Virginia Foxx, North Carolina
Stephen F. Lynch, Massachusetts      Thomas Massie, Kentucky
Jim Cooper, Tennessee                Mark Meadows, North Carolina
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Katie Hill, California               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
             Britteny Jenkins, Subcommittee Staff Director
                     Joshua Zucker, Assistant Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Katie Hill, California               James Comer, Kentucky, Ranking 
Rashida Tlaib, Michigan                  Minority Member
Raja Krishnamoorthi, Illinois        Paul Gosar, Arizona
Jackie Speier, California            Bob Gibbs, Ohio
Jimmy Gomez, California              Clay Higgins, Louisiana
Alexandria Ocasio-Cortez, New York   Kelly Armstrong, North Dakota
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September10, 2019................................     1

                               Witnesses

Panel One

Robert A. Bilott, Partner, Taft Stettinius & Hollister LLP
    Oral Statement...............................................     2
Lori Swanson, Former Attorney General, State of Minnesota
    Oral Statement...............................................     6
Matthew Hardin (minority witness), Commonwealth Attorney, Greene 
  County, Virginia
    Oral Statement...............................................     8

Panel Two

Denise R. Rutherford, Senior Vice President of Corporate Affairs, 
  The 3M Company
    Oral Statement...............................................    25
Paul Kirsch, President of Fluoroproducts, The Chemours Company
    Oral Statement...............................................    26
Daryl Roberts, Chief Operations & Engineering Officer, DuPont de 
  Nemours, Inc.
    Oral Statement...............................................    28

Written opening statements and witnesses' written statements are 
  available on the U.S. House of Representatives Repository at: 
  https://docs.house.gov.
                           INDEX OF DOCUMENTS

                              ----------                              

The documents entered into the record for this hearing are listed 
  below, and are available at: https://docs.house.gov.

  * Advanced Medical Technology Association Letter; submitted by 
  Rep. Comer.

  * 1961 Correspondence from Dorothy Hood; submitted by Rep. 
  Tlaib.

  * 1992 Dupont Study on Employee Cancer Rates; submitted by Rep. 
  Tlaib.

  * Billot Letter to FDA with Accompanying 3M Study; submitted by 
  Rep. Speier.

  * 1978 PFAS Navy Report; submitted by Rep. Wasserman Schultz.

  * NDAA PFAS Letter signed by 162 House Members; submitted by 
  Wasserman Schultz.

  * Responsible Science Policy Coalition Presentation; submitted 
  by Rep. Ocasio-Cortez.

  * Richard Purdy Resignation Letter from 3M; submitted by Rep. 
  Ocasio-Cortez.

  * Questions for the Record: Chairman Rouda question to witness 
  Rutherford, and responses.

  * Questions for the Record: Rep. Keller's question to witness 
  Roberts and DuPont officials, and responses.

 
                          THE DEVIL THEY KNEW:
                    PFAS CONTAMINATION AND THE NEED
                 FOR CORPORATE ACCOUNTABILITY, PART II

                              ----------                              


                      Tuesday, September 10, 2019

                  House of Representatives,
                 Committee on Oversight and Reform,
                               Subcommittee on Environment,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2154, Rayburn House Office Building, Hon. Harley Rouda 
(chairman of the subcommittee) presiding.
    Present: Representatives Rouda, Hill, Tlaib, 
Krishnamoorthi, Speier, Ocasio-Cortez, Comer, Gosar, Gibbs, 
Armstrong, Keller, and Jordan (ex officio). Also present: 
Representatives Dingell, Fletcher, Sarbanes, Wasserman Schultz, 
and Kildee.
    Mr. Rouda. The committee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time.
    This subcommittee is holding our third hearing on PFAS 
contamination focusing on the need for corporate 
accountability.
    I now recognize myself for five minutes to give an opening 
statement.
    As I mentioned, this is the third hearing this subcommittee 
has held on the dangers of perfluoroalkyl and polyfluoroalkyl 
substances, the manmade toxic chemicals known by their acronym 
PFAS. It is the second hearing that focuses on the role of 
industry and the contamination of Americans drinking water, 
groundwater, air, and food supplies with these chemicals.
    If the subcommittee's last two hearings haven't made it 
abundantly clear, we're dealing with a national emergency here. 
PFAS chemicals have been linked to serious adverse health 
outcomes in humans, including low fertility, birth defects, 
suppression of the immune system, thyroid disease, and cancer.
    The EPA has issued a health advisory on two of the most 
well known PFAS chemicals, PFOA and PFOS, and is currently in 
the process of determining how these chemicals should be 
regulated. The current assistant administrator for the Office 
of Water at the EPA, David Ross, agreed that PFAS contamination 
was, quote, a national emergency.
    Several states have already taken steps to regulate these 
chemicals on their own. My point is this is not a small or 
emerging or ambiguous problem. It is a full-blown crisis that 
our government has already acknowledged. So our goal here today 
is to demand accountability for this crisis.
    Our first witnesses are both attorneys, Lori Swanson, the 
former attorney general of Minnesota, who led a massive case 
against the 3M Company on behalf of the state of Minnesota for 
the company's role in damaging the environment with 
perfluoroalkyl chemicals, including PFOS and PFOA.
    After eight years of litigation, 3M settled the case with 
the state of Minnesota last year for $850 million, which is the 
largest environmental settlement in the state's history. That 
money will be used to clean up the sites that have contaminated 
Minnesotan residents.
    Our second witness, Robert Bilott--did I pronounce that 
correctly? Bilott. Excuse me.--Robert Bilott was one of the 
first lawyers to successfully sue DuPont on behalf of people 
who had been exposed to PFAS chemicals and have suffered 
greatly as a result, losing their livelihoods, their health, 
and their family members.
    Bucky Bailey, a witness at the subcommittee's July 24 
hearing was one of the people Mr. Bilott defended. In 2017, 
DuPont and its spinoff company, Chemours, agreed to pay $671 
million for polluting the area around a DuPont manufacturing 
plant in Parkersburg, West Virginia, the same plant where Bucky 
Bailey's mother was poisoned when she was pregnant with him.
    Representatives from 3M, DuPont, and Chemours are here with 
us today. And let me say, we are not here to relitigate the 
cases these companies have already settled or quibble over each 
company's degree of liability. This subcommittee is not a 
court, and I am not a judge. This subcommittee is here today 
because we want more than legal accountability. Though legal 
accountability is great too, we want ethical accountability.
    I look forward to the first panel of witnesses which will 
help us explain to the subcommittee why and how these companies 
got away with poisoning people for more than a half century. 
Because make no mistake, that is exactly what happened.
    The documentation is clear. As early as the 1950's, in-
house scientists at 3M and DuPont began discovering that PFAS 
chemicals were bioaccumulative, meaning they buildup in the 
body, justifying their nickname ``forever chemicals,'' and 
toxic. And yet despite these consensus among scientists within 
both companies, DuPont and 3M continue to deny the toxicity of 
long-chain PFAS chemicals.
    I want everyone in the room to really think about what it 
must be like to live next to a toxic waste dump with your 
family, your kids, that you never knew was a toxic dump. 
Imagine drinking and breathing toxic chemicals that you never 
knew were toxic, because the companies who made them never told 
you and suppressed the research that confirmed just how toxic 
the chemicals were. And as we'll learn from the testimony, 
these extensive--there's extensive documentation that confirms 
that this is exactly what these companies did.
    I'm not editorializing here. And this isn't faux outrage. 
I'm not being hard on these companies just for show. These are 
peoples' lives we're talking about. I hope everyone watching 
here today will go and read more about this issue, learn more 
about the extent of what has been happening over the past 
several decades, because what these companies have done is 
deeply immoral and shameful, and there's no other way to put 
it.
    So I hope we don't waste our time today on phony debates 
over the science. It's almost 70 years since research on the 
toxicity of these chemicals began.
    The evidence is clear and convincing. Enough is enough. And 
after hearing this important testimony today, this subcommittee 
plans on using the information learned to press these companies 
to admit that they know these chemicals are toxic and 
acknowledge their past conduct of concealing important 
scientific studies regarding PFAS toxicity. We will also urge 
them to work together with Congress to address this national 
emergency, which includes designating PFAS as a hazardous 
substance under the Superfund.
    I respect these companies' long and storied histories here 
in the United States. And I respect the fact that these 
companies have made products that Americans want to buy and 
have made American's lives easier. But I'm a compassionate 
capitalist. I don't think for one second that I won't hold 
these companies accountable when they screw up. And these 
companies with us here today have screwed up and we need to 
hold them accountable for doing so.
    I hope the people representing those companies here today 
will admit their mistakes so that we can all move forward and 
achieve what I believe is our common goal: to clean up 
contaminated sites, stop exposing innocent people to toxic 
chemicals, and making sure that all Americans have clean water, 
clean air.
    Thank you. And I now invite the ranking member of the 
subcommittee, James Comer, to give a five-minute opening 
statement.
    Mr. Comer. Thank you, Mr. Chairman.
    We're here today for the subcommittee's third hearing this 
year on the large group of chemicals collectively known as 
PFAS. I appreciate the willingness of today's witnesses to 
appear before us.
    As I've said at each of our hearings, potential drinking 
water contamination is frightening for any community. And I 
look forward in particular to hearing from our second panel of 
witnesses, 3M, DuPont, and Chemours, about their efforts to 
mitigate and remediate any contamination and to develop and use 
alternatives.
    It's important to remember the reason that PFAS substitutes 
became so prevalent in the first place. They provide strength, 
durability, and resilience in a broad range of applications 
from nonstick cookware to firefighting foams that save lives.
    I'd like to submit for the record a letter recently sent to 
Congress by the Advanced Medical Technology Association 
expressing, quote, deep concern about provisions being 
considered in the National Defense Authorization Act that would 
circumvent normal regulatory processes and treat all 5,000 PFAS 
compounds as a single class of chemicals without the adequate 
scientific data to make such a determination.
    Why does the medical technology industry care about these 
proposed actions? Because the medical devices made by these 
companies have, for more than 50 years, been made with 
fluoropolymers, a PFAS compound. Tens of millions of these 
devices have been used by patients without demonstrating any 
adverse health effects. In fact, they've achieved the opposite. 
They've kept patients alive and healthy.
    As I've told you before, Mr. Chairman, I'm committed to 
working with my colleagues on solutions that will contain any 
existing damage from legacy PFAS substances and reduce the risk 
of future harm. But I also hope that we as a body make 
responsible evidence-based, science-driven decisions. Any 
legislative or regulatory actions we consider should be based 
on a solid scientific understanding of the toxicity of specific 
compounds.
    I would also like to note some level of discomfort with 
today's hearing makeup. Our second panel today made up of 
private sector companies agreed weeks ago to appear voluntarily 
before the committee. Only very late in the game did the 
majority announce they would be joined today by attorneys 
involved with multiple ongoing lawsuits with those same 
companies. One of those trials is actually set to begin in 
November, less than two months from now.
    I'm a firm believer in the broad authority of congressional 
oversight, but I've become very concerned when Congress uses 
the tools in ways that can interfere with or give the 
appearance of interfering with ongoing litigation.
    Broad investigative letters to companies seeking documents 
and information relevant to ongoing cases and last-minute 
surprise invitations to hearings for attorneys involved in 
multiple lawsuits against those companies may raise questions 
for some about the true purpose of these hearings.
    I hope this subcommittee will commit to doing its best to 
refrain from interfering or appearing to interfere with ongoing 
litigation as we move forward.
    Today, I hope we will spend some time discussing EPA's PFAS 
Action Plan which the agency released in February of this year. 
In it, EPA outlined a number of short-and long-term actions to 
minimize risk, increase scientific knowledge about the broad 
range of PFAS substances, prevent exposure, and cleanup 
existing contamination. The Plan also outlines EPA's actions to 
coordinate with other Federal agencies in state, local, and 
tribal governments to address the issue.
    I look forward to hearing from our second panel of 
witnesses what their view of the Action Plan is and what they 
think can be done to make it more effective.
    Thank you, Mr. Chairman, for today's hearing. And thank you 
for the witnesses who appeared before us.
    Thank you. I yield back.
    Mr. Rouda. Thank you.
    Now I want to welcome our first panel of witnesses. Robert 
Bilott, partner, Taft Stettinius and Hollister LLP; Lori 
Swanson, former attorney general, state of Minnesota; and 
Matthew Hardin, commonwealth's attorney, Greene County, 
Virginia.
    If the three of you would please stand and raise your right 
hands, and I will swear you in.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Please be seated.
    Let the record reflect that the witnesses answered in the 
affirmative.
    The microphones can be a bit sensitive, so please make sure 
you turn them on and--with that little button in front of you 
and that the microphone is close to you.
    Without objection, your witness statement will be made a 
part of the record.
    With that, Mr. Bilott, you are now recognized to give an 
oral presentation of your testimony.

  STATEMENT OF ROBERT A. BILOTT, PARTNER, TAFT STETTINIUS AND 
                         HOLLISTER, LLP

    Mr. Bilott. Thank you.
    Good afternoon. Thank you for the opportunity to testify 
today.
    My name is Rob Bilott, and I'm a partner with the law firm 
of Taft Stettinius and Hollister out of their Cincinnati, Ohio, 
and Northern Kentucky offices. I've represented injured 
parties, parties injured by PFAS contamination, for more than 
the last two decades. But I'm not here today speaking on behalf 
of any client, but I'm here in response to a request from this 
subcommittee for information about a pending nationwide public 
health threat posed by PFOS chemical contamination.
    The public may only now be realizing the scope of this 
problem, but the companies that manufactured these chemicals 
have been aware of the risks for decades but failed to alert 
the rest of us. I know because I spent the last 20 years of my 
career in litigation with these companies, pulling out of their 
own internal files what was already there and was already known 
about the risk of these chemicals.
    For example, by the 1960's and 1970's, DuPont had data in 
its files from animal studies showing toxic effects in multiple 
species: rats, dogs, rabbits, monkeys. Multiple different types 
of organ systems: the liver, the testes, the adrenals.
    By the end of the 1970's, DuPont knew that PFOS was 
building up in the blood of humans and staying there for long 
periods of time. By the 1980's, DuPont was concerned about 
liver damage and birth defects among its own PFOS-exposed 
workers. DuPont even classified PFOA as a confirmed animal 
carcinogen, possible human carcinogen, by 1988 after a rat 
study showed that the chemical caused testicular tumors.
    A second study emerged only a couple of years later 
confirming again, not only testicular tumors, but this time 
also pancreatic and liver tumors. During the 1980's and 1990's, 
the company also monitored and was concerned about increased 
cancer rates among its own workers.
    During the 1980's and 1990's, DuPont even found the 
chemical in the local public drinking water supply as early as 
1984 and at levels above its own internal safety guideline, but 
did not alert local officials or any of the members of the 
public drinking that water.
    As this troubling evidence continued to mount over the 
years, DuPont, rather than stop using this material, actually 
went forward and constructed its own PFOA manufacturing 
facility in North Carolina to continue using and releasing even 
more of the chemical, even after 3M announced that it would 
stop any further manufacture back in 2000.
    When the community drinking this contaminated water outside 
of DuPont's plant in West Virginia finally learned of the 
problem, DuPont publicly denied that there was any evidence of 
harm, denied its own internal science.
    In response, we actually ended up sitting down with DuPont 
and created an independent panel of scientists back in 2004 
whose purpose was to look at all of the existing evidence and 
conduct new studies of the impacted community members to 
determine what the real risks of drinking this in the water 
were. These independent scientists, referred to as the C8 
Science Panel, ended up analyzing data from over 69,000 people, 
conducted over a dozen completely new studies, some of the most 
comprehensive human health studies done on any chemical ever.
    They not only looked at that new data from the new studies, 
they took all of the evidence. They weighed all of the 
evidence, all of the animal studies, all of the human data, all 
of the available data, weighed it all to make a conclusion as 
to whether or not there were scientific links between drinking 
this in the water and actual human disease. That took seven 
years, over $30 million, to find out what the answer to that 
was.
    By 2012, this independent panel of scientists had 
concluded, yes, drinking this in the water was linked with six 
different serious diseases, including two types of cancer: 
kidney cancer and testicular cancer. The same type of cancer, 
by the way, that was found in the rat studies decades earlier.
    This is independent scientists who weighed all of the 
evidence. That independent scientific review has occurred. 
Independent scientists have looked at this data, all of the 
data, and confirmed links with human disease.
    Unfortunately, despite all of this data that now exists, 
after years of litigation to pull this information out and to 
make it public after gag orders, protective orders, et cetera, 
now that this information is finally there, unfortunately, EPA 
still has not acted.
    I first warned EPA 18 years ago, and we are still here. We 
have more than enough evidence. It's time to move forward and 
act to protect the American public.
    Thank you.
    Mr. Rouda. Thank you, Mr. Bilott.
    Ms. Swanson, you are now recognized for five minutes.

 STATEMENT OF LORI SWANSON, FORMER ATTORNEY GENERAL, STATE OF 
                           MINNESOTA

    Ms. Swanson. Thank you, Mr. Chairman, ranking member, 
members of the committee. I appreciate the opportunity and 
invitation to be here today.
    In 2010, I was serving as attorney general of my state of 
Minnesota and filed a lawsuit against 3M Company for damaging 
my state's natural resources through its manufacture and 
disposal of PFAS. Our lawsuit alleged that 3M contaminated the 
aquifers that supplied drinking water to over 100,000 Minnesota 
residents.
    The lawsuit settled last year on the morning the trial was 
to begin. The settlement required 3M to pay $850 million to the 
state of Minnesota to bring long-term clean drinking water 
solutions to my state and another $40 million in short-term 
solutions. I have been told that it's the third largest natural 
resource damage recovery in the Nation's history.
    The lawsuit lasted over seven years and involved the 
production of 27 million pages of documents, about 200 witness 
depositions, testimony of world-renowned scientists, and over 
1,500 court filings. Public records and public trial exhibits 
in that lawsuit show that 3M knew but concealed information 
about the dangers of these chemicals for decades, some of which 
the public is just now discovering.
    In many ways, Minnesota, my state, is ground zero, for the 
PFAS contamination that confronts the country. After the war, 
World War II, 3M bought the patent to develop PFAS and then 
started to manufacture these chemicals and ship them around the 
entire country. Unfortunately, 3M knew about the risks of the 
chemicals to the drinking water, the environment, and human 
health for decades but concealed its knowledge, subverted the 
science, and kept pushing the chemicals out the door.
    In 2000, when it stopped making some forms of PFAS, 3M was 
making about one half a billion dollars a year from the 
products that were discontinued.
    And what did 3M know about PFAS prior to the year 2000? I 
refer you to Exhibit A of my testimony. It shows that in 1997, 
3M gave DuPont a material safety data sheet with the label that 
said: ``Cancer: Warning: Contains a chemical which can cause 
cancer,'' citing 1983 and 1993 studies it conducted with 
DuPont. But 3M removed that label the same year and for decades 
sold PFAS without warning the public of its dangers.
    We know that 3M told employees not to write things down 
about PFAS and to mark documents ``attorney-client privilege,'' 
regardless of whether attorneys were even involved. We know 
that in 1998, a committee of 3M scientists recommended the 
company notify the EPA the chemicals were widely found in human 
blood, but a 3M executive overruled them.
    Then in 1999, a 3M scientist blew the whistle on 3M. He 
resigned and sent his resignation letter to the EPA. And he 
said that 3M ecotoxicologists urged the company for two decades 
to perform ecological risk assessment of PFOS, but the company 
dragged its feet, and that the company misleadingly downplayed 
to regulators the presence of these chemicals through the food 
chain transference.
    An issue in our lawsuit was what did 3M know and when did 
it know it. We know that throughout the 1950's, 3M's own animal 
studies found PFAS to be toxic. By the 1960's, it knew the 
chemicals don't degrade in the environment. In 1970, a company 
that purchased 3M's firefighting foam had to abandon a test of 
the product because all the fish died.
    And then in 1975, two independent scientists, Dr. Warren 
Guy and Dr. Donald Taves, found fluorochemicals in blood banks 
throughout the country, and they called 3M to say we think your 
chemical is causing this. And 3M pled ignorance, in its words, 
claiming that Scotchgard didn't contain these chemicals, and 
concealing from the scientists who wanted a chemical footprint 
that information. In doing so, the company thwarted the broader 
scientific community's understanding of the health impacts of 
these chemicals for a generation.
    We know that 3M soon replicated the studies and confirmed 
that PFAS was found in human blood. In 1979, 3M's lawyers 
advised the company to conceal that PFOS was in human blood. We 
know that 3M concealed from the EPA for more than 20 years that 
PFAS was in human blood.
    By 1976, 3M knew the chemicals were in the blood of workers 
at much higher levels but didn't make this public. By 1978, 3M 
knew the chemicals killed monkeys. We know that in 1981 the 
company knew that the chemicals caused abnormalities in 
pregnant rats. And by 1988, a company that purchased PFAS 
firefighting foam complained to 3M that it falsely claimed the 
product was biodegradable when it wasn't.
    A few months later, a 3M employee wrote an internal memo 
that 3M should stop perpetrating the myth that these 
fluorochemical surfactants are biodegradable, but the company 
continued to sell them.
    Testimony in our lawsuit showed that by 1993, 3M knew that 
there was some evidence that lactating goats transferred PFAS 
to their kids in milk and that it was likely that human mothers 
would do the same thing. But it wasn't until 23 years later 
that EPA issued a health advisory cautioning pregnant women and 
breast-fed infants to avoid these chemicals out of concern 
that, just like with goats, a mother can transfer the chemicals 
to her fetus or baby through the placenta or breast milk.
    Mr. Chairman, members, I appreciate the opportunity to be 
here today and talk about these issues, and look forward to 
Congress being part of the solution.
    Mr. Rouda. Thank you very much.
    The next witness, Mr. Hardin, who was just added to the 
witness list yesterday, and I just received your opening 
statement an hour ago, please proceed with five minutes of 
opening testimony.

   STATEMENT OF MATT HARDIN, COMMONWEALTH'S ATTORNEY, GREENE 
                             COUNTY

    Mr. Hardin. Thank you, Mr. Chairman and ranking member. 
Thank you as well to the members of the committee for inviting 
me to testify today.
    My name is Matthew Hardin. And although I testify in my 
individual capacity, I currently serve as the chief prosecutor, 
which is called the commonwealth's attorney, in Greene County, 
Virginia. I was previously a litigator from 2014 to 2017, and I 
used federal and state freedom of information laws to obtain 
government documents nationwide.
    I'm here today because many of the public records that I 
and my colleagues obtained detailed a campaign by plaintiffs' 
attorneys and activists to recruit, quote, a single sympathetic 
state attorney general or even grand juries convened by a 
district attorney, unquote, to subpoena records of private 
parties targeted by the tort bar.
    This campaign was, in fact, successful, as headlines well 
document, and was followed by a coordinated effort by political 
donors, again with the assistance of activists, to enlist state 
law enforcement apparatuses to investigate private parties and 
otherwise support a private agenda.
    A report released by the Competitive Enterprise Institute 
and authored by Christopher Horner entitled, ``Law Enforcement 
for Rent,'' details many of the documents I helped uncover. The 
lead plaintiff's attorney behind the effort to recruit 
attorneys general admitted the campaign's political nature in 
addition to its pursuit of financial settlements in an 
interview with The Nation Magazine.
    Among other things, he said legislation is going nowhere, 
so litigation could potentially play an important role. Also, 
apparently recognizing the problematic nature of these 
collaborations, the same plaintiff's attorney worked with 
attorneys general offices against which I litigated, Vermont 
State and New York State, to mislead a reporter from The Wall 
Street Journal who called apparently to inquire about a 
separate issue entirely.
    One Federal court noted this behavior asking: Does this 
reluctance to be open about collaborating with plaintiffs' 
attorneys and activists with a litigation agenda suggest that 
the attorneys general are trying to hide something from the 
public? My experience and the experience of others forced to 
litigate numerous open records requests to determine how public 
offices came to be used in this way suggests the answer is yes.
    One public record I obtained in litigation in the Vermont 
courts was an agenda for a meeting among activists, prospective 
funders, attorneys general offices, and plaintiffs' lawyers 
titled ``Potential State Causes of Action Against Major Carbon 
Producers.'' One academic hosting the meeting described it to 
attorneys general offices as a, quote, private event for staff 
from state attorney general offices, unquote, to pursue this 
agenda. One academic invited to address the gathering boasted 
in an email to a major donor to her institution and the host 
institution that this meeting was, quote, about going after 
climate denialism along with a bunch of state and local 
prosecutors nationwide, unquote.
    It is difficult to imagine this being anything other than a 
national scandal and the subject of numerous Pulitzer Prize 
winning news stories if the players and agenda were different, 
which may be why so many media and constitutional watchdogs 
have chosen instead to avert their gaze. As such, this sort of 
behavior is becoming normalized and expanding to the point that 
congressional committees are apparently joining in.
    Please note that if it is acceptable involving parties and 
issues you favor, it is also acceptable involving parties and 
issues you do not favor. If the growing use of public office to 
assist private litigants is permitted to stand here, what is 
the limiting principle dictating that the National Rifle 
Association, pro-life groups, or chemical and fossil fuel 
companies cannot also chair such use of law enforcement and 
otherwise use public office to support their end.
    I come to this committee both as a prosecutor and to offer 
my experience on these matters as a civil litigator. I believe 
in the rule of law and that all citizens are entitled to 
participate in democracy and have their day in court, if they 
so choose. But I also appear today concerned that private 
donors and activist groups are seeking to thwart the fair and 
neutral workings of our democratic policymaking and our 
litigation system, including our law enforcement apparatuses 
and court system.
    Civil and criminal litigants are entitled to discovery 
under the rules of court that apply in their cases. The 
American system of justice is the envy of the world, and our 
courts are more than capable of applying those rules equitably.
    But what I saw happening as a private litigator was a 
perversion of justice. Rather than filing suits and seeking 
their day in court like any other litigant, powerful special 
interests sought to enlist law enforcement to obtain public 
records seemingly to assist their tort litigation campaigns as 
well as to make policy through the use of law enforcement 
office. When tort lawyers teamed up with attorneys general 
using either common interests or succumbent agreements, the 
public showed an interest in what its government was up to, and 
many citizens and interested groups filed freedom of 
information or state-level equivalent requests. But those 
requests were frustrated over and over again as states 
attempted to hide these records.
    The public has a potential interest or a substantial 
interest in learning how private law firms are recruiting 
elected officials to further private goals and what, if any, 
discussions these private attorneys have with the government.
    I'm calling on this committee to let the justice system 
work the way it was intended to. Let's try civil cases in civil 
court, get prosecutors back in the business of prosecuting 
crime, and get Congress and this committee back focusing on its 
Article I responsibilities.
    Thank you, Mr. Chairman.
    Mr. Rouda. Thank you, witnesses, for your opening 
statements.
    At this time, the chair recognizes Representative Tlaib for 
questions.
    Ms. Tlaib. Thank you, Mr. Chairman.
    I really do appreciate, Mr. Bilott, that you're here at 
this subcommittee, and we really thank you for your important 
work that you've done to hold DuPont accountable for its decade 
of wrongdoing. I know from some of my own struggles to hold 
corporate polluters accountable in my own district that these 
are long, hard battles, and I appreciate the commitment you 
have made to our public health.
    Michigan has the most PFAS sites in the country, at least 
192 as of May 2019 out of at least 610 known sites across the 
country. Last year, when the state tested public water systems 
serving nearly 80 percent of our residents, 10 percent of those 
systems showed PFAS. And that PFAS in the water in our homes 
and our schools, in our workplaces showed up. In Melvindale, in 
my district, PFAS just oozed out of the ground into the 
roadway. And residents are still searching for answers about 
where it came from.
    As construction began on the new international crossing, 
the Gordie Howe International Bridge, PFAS was found in the 
soil at the bridge site in Delray neighborhood in southwest 
Detroit right next to the Detroit River where drinking water is 
drawn from. This is a manmade crisis, and people like my 
residents back in the 13th District are the ones who suffer 
from it.
    I want take some time here today and walk through some of 
the key documents that prove that DuPont knew of the dangers of 
PFAS chemicals for decades and concealed this truth from 
Michiganders and all Americans, putting their greed over the 
public welfare.
    First, Mr. Chairman, I would like to enter into the record 
a 1961 correspondence from Dorothy Hood, who had served as 
chief toxicologist for DuPont. In this correspondence, Ms. Hood 
states that PFAS should be handled, quote, with extreme care, 
and stated that animal studies conducted by DuPont found liver 
enlargement.
    You have been engaged in extensive litigation against 
DuPont and have reviewed thousands, if not millions, of 
documents by the company. Based on your review of these 
documents, approximately when did DuPont become aware of the 
PFAS was toxic?
    Mr. Bilott. Thank you for your question, and thank you for 
the comments.
    And, first of all, you know, you mentioned the fact that 
there has been such a widespread presence of PFAS detected in 
Michigan. That's because Michigan is one of the first states to 
comprehensively look for it and test. And unfortunately, I 
think what we are about to see is the same thing across the 
country as more places test.
    Now, with respect to the information you mentioned from the 
DuPont files, it took many years to pull that information out 
of the DuPont documents. But what became very clear is that the 
company was well aware by the early 1960's, as reflected in 
that document you just referred to from 1961, that the 
chemical, PFOA in particular, was toxic and had various adverse 
effects. There were numerous laboratory studies going on within 
the DuPont Haskell Laboratory throughout the sixties and the 
seventies.
    And what we tried to do, because there's so much 
information and so many documents from DuPont's own files, I 
submitted with my written testimony several court orders, 
actually, from a Federal court in Ohio where a lot of that 
evidence actually was presented to juries who reviewed all of 
that evidence, spent weeks going through all of this 
information. Tons of documents from within the DuPont files.
    And those court orders, the reason I submitted them is 
because they give you a nice snapshot in summary of some of 
that key information, some of the key documents organized in 
chronological order that were reviewed by the court. And, in 
fact, when those documents were presented to juries in Federal 
court, those juries found that DuPont acted with conscious 
disregard of the risks that were reflected in those documents.
    Ms. Tlaib. Any of those include documents--studies that 
they were aware of that PFAS was a health risk?
    Mr. Bilott. Oh, yes. Yes. There are plenty of documents 
within the files. Again, you're talking about documents that 
first started off with animal toxicity testing. And we know. We 
do the animal toxicity----
    Ms. Tlaib. On top of your head, what are some of the things 
that they found in those studies? I know you submitted it for 
document--and, Mr. Chair, if I may, I'm going to submit a study 
that showed, in 1992, that showed that DuPont observed 
increasing cancer rates among DuPont employees at that time.
    But in the process, I really want the public--for us to be, 
you know, very, very direct about what exactly was found in the 
studies specifically that was causing the cancer.
    Mr. Bilott. There were--the animal studies showed that PFOA 
actually caused cancer, liver tumors, pancreatic tumors, 
testicular tumors. DuPont had a corporate epidemiology 
department that actually tracked the incidence of cancer within 
the workers that were working at the plant handling PFOA. And 
repeatedly, the corporate epidemiology department found 
increases in cancers, including kidney cancers.
    So there were animal study data that supported the risks to 
human health. And that's why the animal studies are done, to 
predict human health. And there was actual human data from the 
worker studies as well.
    What was missing at that point in time was what it was 
doing in the community, which the science panel then filled in. 
So we have animal, worker, and community data.
    Ms. Tlaib. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Bilott. Thank you.
    Mr. Rouda. Thank you.
    The chair now recognizes Representative Comer for five 
minutes of questioning.
    Mr. Comer. Thank you.
    I'm very interested in this issue, like everyone on the 
panel. And I'm very passionate about having clean drinking 
water. And I think that, you know, the role should be to figure 
out how can we ensure that every American is protected from 
this and that we have clean drinking water. I think the next 
panel will do--will be a more productive discussion than the 
first.
    But we have some attorneys. And, Mr. Hardin, I wanted to 
focus on litigation issues and the legal process, because I 
tend to believe that sometimes the trial attorneys make things 
last longer--make things take longer. You know, we've got a 
problem here that needs to be fixed, and I worry that sometimes 
the ongoing litigation tends to delay the process.
    But, Mr. Hardin, we've seen a trend in state attorneys 
general contracting with outside law firms to conduct 
environmental litigations on the state's behalf against 
corporations, correct? On what basis are these outside law 
firms paid, typically? On a contingency fee basis or how?
    Mr. Hardin. We have seen a rise in contingency fee 
agreements nationwide. And I think that that's part of the 
problem, is I think that it incentivizes private gain and it 
takes these offices away from litigating truly in the public's 
interest and toward litigating in a pecuniary interest.
    Mr. Comer. I'm curious. In your experience, have state 
attorneys general been forthcoming and transparent about their 
relationship with outside law firms in these matters?
    Mr. Hardin. I would say that it's significantly less than 
transparent. I think that when people file open records 
requests, they're consistently frustrated. And we've learned a 
little bit, but I'm sure there's more to come out.
    Mr. Comer. Mr. Hardin, you spoke on your work as a 
litigator using the Freedom of Information Act to obtain 
government documents as it pertained to a campaign by 
plaintiffs' attorneys to recruit, quote, sympathetic attorneys 
general. And you spoke about, in your opening testimony, the 
findings in that report.
    There are many ongoing civil suits and many more likely to 
come. Do you see similarities between what you found with state 
attorneys general partnering with plaintiffs' attorneys and 
Congress potentially involving itself in ongoing litigation?
    Mr. Hardin. Yes. And I think that this--it was already bad 
enough when law enforcement was teaming up with private 
attorneys, because you're sort of blending private and public 
power. And now when Congress is putting its thumb on the scale 
through the oversight process, I think that just further 
thwarts the normal working of the judiciary.
    Mr. Comer. Mr. Bilott, you led the class action lawsuit 
against DuPont in the early 2000's, which ultimately settled in 
2004. Is that correct?
    Mr. Bilott. That's correct.
    Mr. Comer. It's been reported that you and your firm earned 
$21.7 million from that settlement. Is that correct?
    Mr. Bilott. You know, we're talking about litigation that 
actually started in 1999 and stretched over 20 years. You know, 
we're talking about litigation that our firm financed and had 
to actually, you know, push forward for 20 years on its own. 
And does the firm actually end up getting paid at some point? 
Yes, the law firm ended up getting paid.
    But the only way we know about what we know right now about 
PFAS was from that litigation, from the community members 
coming forward and actually pursuing claims and digging this 
information out of the companies. We would not know any of this 
today if it hadn't been for that litigation and the 20 years 
that it took to pull this information out of those companies' 
files.
    The companies took steps to prevent the disclosure of that 
information. DuPont tried to get a gag order to prevent me from 
even speaking to the EPA about the health risks of these 
chemicals. Back in 2001, 3M got a blanket protective order in 
litigation in Minnesota to prevent any public disclosure of its 
internal documents. They kept those documents secret----
    Mr. Comer. Okay. You've made your point.
    Have you earned attorney's fees in connection with any 
subsequent PFAS-related lawsuits?
    Mr. Bilott. I am a partner with a law firm. Our law firm--
--
    Mr. Comer. I'm familiar with the law firm.
    Mr. Bilott. Our law firm receives compensation.
    Mr. Comer. So can you give us a ballpark figure on those 
fees, out of curiosity?
    Mr. Bilott. You know, I can't.
    Mr. Comer. Was it a million? Less than a million? I'm just 
trying to learn more about----
    Mr. Bilott. I believe all of the fee awards were awarded by 
a court. The court determines what fees are appropriate for the 
attorneys based on the number of years of litigation.
    Mr. Comer. Last question. My time's up. Do you have a book 
coming out in a few weeks about your life and the PFAS 
litigation?
    Mr. Bilott. Yes, there is a book. And, in fact, you know, 
people have been asking me, how did this happen? How is it that 
all of this information could be known about these chemicals? 
All of this information could be--could be known. This 
contamination can occur on a nationwide----
    Mr. Comer. And this last thing, and I have to yield back. 
So you'll receive royalties on that book, correct?
    Mr. Bilott. I guess that would depend on whether or not the 
book sells. But I'm not here to talk about a book. I'm here to 
talk about what these companies knew about this information. 
I'm not here to talk about me. I'd like to talk about what we 
learned from these companies and why there's now a public 
health threat.
    Mr. Comer. Thank you.
    Mr. Rouda. Thank you.
    The chair recognizes Representative Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    You know, we have a President of the United States whose 
had ghosts written many books on his behalf. I don't hear us 
asking him how much he's getting in royalties from that.
    I'm astonished by the questioning that you were just 
presented with. If I'm not mistaken, we have companies here who 
deliberately chose not to reveal very--negative information 
about PFAS that they were selling and chose to hide it from the 
American people. And they did so and probably were gaining 
bonuses every year.
    Are we asking them did they receive a bonus from hiding 
this from the American people? That's astonishing questioning 
that we just heard. And I apologize, Mr. Bilott, for the fact 
that you had to go through that. But that's the way we are 
these days.
    Let's look at, not the reality, the fact that corporations 
continue to do this, like the tobacco industry continued to do 
that, hide it from the American people, and do so with the 
understanding that this is a cost of doing business. And if 
somewhere down the road, some 20 years later we get caught, 
we'll pay out a few hundred million dollars, but that won't 
affect our stock. It's a cost of doing business. It's shameful.
    I understand you investigated a 2001 study sponsored by 3M. 
In a letter to the U.S. Food and Drug Administration, you 
characterized the study as confirming elevated levels of PFAS 
in the U.S. food supply. Is that correct?
    Mr. Bilott. Yes. In fact, 3M had completed a study looking 
at the presence of PFAS in a variety of different food, milk, 
vegetables, bread, in different cities across the country and 
found PFAS in milk, bread, etc., in 2001.
    Ms. Speier. Mr. Chairman, I'd like to enter Mr. Bilott's 
letter as well as the 2001 3M study into the record.
    Mr. Rouda. Without objection, so moved.
    Ms. Speier. So, Mr. Bilott, most people have been focused 
on the contamination in water. But in your letter, you 
reference levels of PFAS contamination in apples in Alabama, 
ground beef in Florida, and milk in Georgia, just to name a few 
examples. There are about 800 parts per trillion. Based on 
these numbers, it seems like PFAS contamination extends into 
our food supply.
    Is there a red flag that should be going up in every 
household in America, that we are purchasing food products that 
contain PFAS that are going to have a deleterious effect on our 
families?
    Mr. Bilott. I have been trying to get the attention of the 
Federal agencies for over 18 years to look at this and to look 
at what's already known about what is out there. Where the PFAS 
being found. Not only in water but in food as well. And we now 
know wastewater treatment systems, for example, are taking 
waste in the water, consolidating this stuff, and they're 
ending up with very high levels of PFAS in biosludge that's 
given to farmers across the country, where this sludge is 
spread on agricultural fields which could be major sources of 
PFAS for intake by the crops and by the animals.
    This is something I've been trying to get our Federal 
agencies to pay attention to for quite some time now, and 
that's why I'm very happy to be able to be here. I've had this 
situation before. I'm familiar with it with if you can't 
address the facts, try to attack the messenger. So I'm used to 
that. That's been going on for 20 years.
    But that's not going to stop me from trying to at least 
elevate folks' attention to what we know about this health 
threat and what we ought to be doing about it, because this 
information goes back decades.
    Ms. Speier. Ms. Swanson, you've shown extraordinary 
leadership, thank you, on behalf of the American people. I know 
you were representing your state in Minnesota.
    Do you think anything would have happened if you hadn't 
sued 3M?
    Ms. Swanson. No, I don't. I think that our lawsuit brought 
to the public's attention a number of the documents we're 
talking about today. But for decades, 3M concealed information 
about the risks of these chemicals to the environment as well 
as to public health.
    Ultimately, this was a major issue facing Minnesota, as it 
is a major issue facing the entire country. And it did take our 
litigation to get a significant recovery for the people of our 
state, and then through that, information about these 
documents.
    You know, 3M began, after it stopped making some forms of 
PFAS, a campaign to create what they called defensive barriers 
to litigation and to command the science. They selectively 
funded outside research, and they got the right to review and 
edit scientific papers about a PFOS before they were published. 
And it even went so far to develop a relationship with the 
professor and editor of one half of the academic journals in 
this country about PFAS, where they paid him what we believe is 
at least $2 million. And in exchange, he was able to send these 
studies to 3M before they were even published so they could get 
an advanced peek at them. He made sure in his timesheets that 
there was no paper trail to 3M. And he even went so far as to 
advise 3M to keep bad papers of the literature, otherwise in 
litigation they can become a large obstacle to refute.
    And so the company, unfortunately, engaged in a campaign to 
hide its own studies and to, in fact, shape the science through 
the funding of these other studies.
    Ms. Speier. Now, that's shocking. Who is that journal 
editor?
    Ms. Swanson. The professor's name is Dr. John Giesy, and he 
was a professor out of Michigan.
    Ms. Speier. My time's expired. But if you could provide the 
committee, and me in particular, any suggestions that you think 
we should contemplate in Congress to address that particular 
issue in general and accountability by corporations as well.
    Thank you. I yield back.
    Ms. Swanson. I'd be happy to.
    Mr. Rouda. Okay. The chair now recognizes Representative 
Gibbs for five minutes of questioning.
    Mr. Gibbs. Thank you, Mr. Chairman.
    You know, I think if any companies out there hid things and 
didn't reveal things to the public and stuff, that should be 
sorted out in the courts, which I think has happened. Let the 
judicial system do that. We shouldn't relitigate. I don't think 
that's our role. That should be sorted out in the courts. And 
what our role should be, determining, moving forward, what 
research needs to be done to make sure we protect the public 
and get the facts straight.
    And I guess I want to be clear. I see that last month, the 
Advanced Medical Technology Association wrote a letter to the 
Senate expressing deep concern about provisions in the NDAA Act 
that would circumvent the normal regulatory process that would 
treat all 5,000 PFAS compounds as single class of chemicals. 
And their concern is not with adequate data to make that such 
determination.
    And I would go on to say I believe some of these PFAS, like 
fluoropolymers that have been used for like 50 years, that has 
some good medical benefits and hasn't demonstrated adverse 
health effects. So I guess my first question to the first two 
witnesses over here is, I'm trying to understand this a little 
better. There's 5,000 compounds that make up this category. Is 
it dangerous to categorize them all as one and go after them or 
has there been enough research, scientific data, to show what 
compounds might be hazardous and what might not be, or do you 
think the whole class of compounds should be?
    Mr. Bilott. Thanks for the question. I think what we do 
know is that it took this long to find out what the companies 
already knew about one of these chemicals, PFOA. It took many, 
many years to dig out what was already known about that 
chemical. And what we now know about PFOA is enough to know 
that is something that we really need to take action on.
    And the scientific community, looking at what we know about 
PFOA and looking at the chemical similarity of these other 
chemicals in the class, that has raised enough red flags to say 
we need to be looking at this entire class of chemicals. 
Because we don't know what else--what other information is 
already out there that we don't know about.
    We were told for years that PFOA was perfectly fine. There 
are no health effects. There's no evidence of harm.
    Mr. Gibbs. That was the chemical company telling you? That 
wasn't FDA or EPA? What scientific research was there?
    Mr. Bilott. That's what I'm--when we first learned that 
PFOA even existed and that people were being exposed to it, 
1999, 2000 timeframe, the companies were telling us, don't 
worry about it. There's no health effects. There's no evidence 
that it hurts anybody. It took years of litigation to find out 
that was not true.
    Mr. Gibbs. So what was the role of the regulators during 
that time?
    Mr. Bilott. I was doing my best, during that period of 
time, to funnel as much of the internal information, 
nonconfidential, from within the company files about the health 
effects of these chemicals to the regulatory agencies so they 
could take action. That's been going on for 18 years. Those 
agencies have more than enough information about PFOA, about 
the related chemistry to act.
    Mr. Gibbs. Okay. I want to move on.
    Ms. Swanson, you settled a lawsuit with 3M, $850 million. I 
guess, how much, do you know what the contingency fee was for 
the attorneys? Do you know?
    Ms. Swanson. Mr. Chairman, Member, I think it came to about 
12.9 percent of the total settlement.
    Mr. Gibbs. 125 million?
    Ms. Swanson. I think that's right.
    Mr. Gibbs. Okay. So that leaves about 720 million left. 
Ended up with 739 million, because you got interest, because 
interest rates were higher back then.
    Ms. Swanson. Correct.
    Mr. Gibbs. But apparently, the money is still sitting 
there. Minnesota hasn't used the money to do medical care, 
water testing, any remediation or anything. Is that true? Is 
the money still sitting there?
    Ms. Swanson. Mr. Chairman, Representative Gibbs, there was 
a working group formed under the settlement. And the working 
group, which concludes 3M and community leaders, local 
governments, are evaluating the best way to appropriate the 
moneys.
    Essentially, the purpose of the settlement and the 
limitation----
    Mr. Gibbs. This settlement was in 2010, right?
    Ms. Swanson. No. 2018. Just last year.
    Mr. Gibbs. Okay. I missed that.
    Ms. Swanson. And, essentially, I didn't have authority to 
get medical injury damages or injury--recoveries for injured 
people, so the settlement was for damages to the state's 
natural resources. Under the settlement, the money is going to 
go to bring clean drinking water solutions to these hundred-
and-some-thousand Minnesotans who have contaminated aquifers 
and contaminated private wells. And the working group 
compromised of local units of government and 3M and the state 
of Minnesota are trying to figure out the best ways to 
appropriate that money in order to bring these solutions.
    If there's money left after the drinking water is dealt 
with, then it will go to clean up the natural resources and to 
deal with remediation of, you know, fishing habitats and 
wildlife and things of that nature.
    Mr. Gibbs. Okay. My time is up, Mr. Chairman. I just want 
to reiterate that we should make sure we're not relitigating 
these cases, and working for how we should do more research and 
finding more answers to solutions to protect our drinking water 
and food supply.
    I yield back.
    Mr. Rouda. Great. Thank you.
    The chair now recognizes Representative Dingell.
    Mrs. Dingell. Thank you, Mr. Chairman. And I really thank 
you for your leadership on this issue.
    This hearing is really important for so many ways, because 
we're trying to get to the truth. And we've got too many 
communities that are being impacted by this. We don't know how 
to clean it up. We don't know what the long-term effects are.
    In order to properly address PFAS contamination in America, 
we've got to understand the full scientific history behind the 
health risks and its uses. What did corporations know and when 
did they know it, and where is this contamination and how are 
we going to clean it up?
    Michigan has more sites than any state in the country right 
now, but that's because we're testing for it. We have more than 
70 sites. And if other states begin to test, we're going to see 
more of these. It is in the water that some people are 
drinking, though our state is testing water to clean it up. 
It's in the fish we eat. And communities that rely on it are 
now being told the fish aren't going to be safe for five, ten, 
15 years.
    Foam's washing up. And if you're in my district, you're 
lucky enough now that the fire foam that we're going to--that 
people are convincing people not to use has to be destroyed or 
stored someplace. And people in my district may be getting that 
as well. So it's impacting Republican and Democratic districts. 
It's not a partisan issue.
    I would like do direct my first questions to Attorney 
General Swanson. When did 3M scientists first learn that PFAS 
could enter our bodies through food?
    Ms. Swanson. Mr. Chairman, Representative Dingell, I don't 
have the answer on food, but I can tell you they first learned 
that it was in human blood in 1975. There were two doctors who 
came forward, independent scientists, and they were testing 
blood in blood banks as far away as New York and Texas. And 
they came forward and they said these chemicals are in the 
blood and we think it's your chemical in the blood.
    3M pled ignorance. Said, you know, we're not going to admit 
that. And then the scientists said, could you give us a 
chemical fingerprint of these chemicals so that we can do more 
testing to show that it's your product chemical in Scotchgard 
causing this. And 3M said flat out, no, we're not going to 
cooperate and provide you with that information.
    3M confirmed that the very next year that it was in human 
blood, but it took 20 years for them to tell the EPA and the 
public. In fact, 3M, in 2006, was fined $1.5 million by the EPA 
for failing to provide studies that were required to be filed 
under TSCA, and in many cases, for decades failed to provide 
studies.
    Mrs. Dingell. So I'm going to ask you some questions 
quickly, because we're down to two minutes, and they're some 
important ones.
    Is it better for the health of the American people and our 
environment to address the PFAS crisis through continuing 
litigation or do we need to get some legislation to address 
this?
    Ms. Swanson. Mr. Chairman, Representative Dingell, I think 
it's going to be both. But I think it's very, very important 
that Congress act to help bring global solutions to this 
problem.
    Mrs. Dingell. How would designating PFAS as a hazardous 
substance under the Superfund program hold responsible parties 
accountable for the PFAS contamination that they've caused?
    Ms. Swanson. Mr. Chairman, Representative Dingell, it would 
be very helpful to call it a hazardous substance under CERCLA, 
because it will bring to bear known processes for cleaning up 
these chemicals in communities. It would also help deal with 
the cleanup around military institutions and bases where the 
military hasn't really been very quick to clean it up, and 
soldiers are drinking this water, and their families. So it 
would be very helpful for Congress to do that.
    Mrs. Dingell. So do you think it's--we currently have an 
amendment on the DOD bill that would require that, because as 
you know, EPA has yet to even set a rulemaking to set the 
standard. It's only a guideline.
    So would designation of that increase or speed up the 
beginning to clean this up and people recognizing how important 
it is to deal with this pollutant?
    Ms. Swanson. Mr. Chairman, Representative Dingell, yes, it 
would very much expedite the process for that to happen.
    Mrs. Dingell. What specific actions have you taken as AG to 
hold PFAS polluters accountable? And how can other states in 
the federal government follow what you've learned?
    Ms. Swanson. Mr. Chairman, Representative Dingell, it was 
the companies' products that created this problem. It wasn't 
communities that created it. It wasn't individual homeowners 
who created it. It wasn't patients who created it. It was the 
companies that develop widely popular products and sold them. 
And then when they learned that the products were dangerous to 
public health and the environment, didn't disclose it. They 
didn't come clean. And so I think it's very important for the 
companies that contributed to the problem to be part of the 
solution and help fund the cleanups.
    What we did in Minnesota was file the lawsuit against 3M 
that recovered $890 million to help bring clean water to 
solutions to our state. I think other communities across the 
country are going to have to look at similar actions because 
this is a very large and significant problem.
    Mrs. Dingell. Thank you.
    And I'd like to ask one yes-or-no. Is that amount of money 
going to cover cleaning up all the sites that you have there?
    Ms. Swanson. Mr. Chairman, Representative Dingell, yes.
    Mrs. Dingell. Thank you.
    Mr. Rouda. Thank you.
    Without objection, the representatives from Michigan, 
Texas, and Maryland are authorized to participate in today's 
hearing.
    And we have been called to vote. So what we're going to do 
is I am going to ask Congressman Sarbanes behind me to take 
over the chair so that he can ask questions while we all go 
vote. And then he's going to sprint over there and do the same. 
And after he finishes his questioning, we will move into recess 
with the next panel.
    So I thank the three of you, but please stay there.
    Mr. Sarbanes.
    [Presiding.] Thank you.
    I'm going to yield myself five minutes to ask questions to 
the panel. I appreciate you being here.
    Mr. Bilott, I wanted to address most of my questions to 
you. You, at this point, I would say, have made a study of the 
culture in these corporations in terms of hiding the ball over 
a period of decades. And I'd like you to speak a little bit to 
that, because I've seen in the record that you've already 
created, with the testimony that's been submitted, plenty of 
instances in which employees inside these companies were trying 
to raise the alarm, call attention to the risks that were being 
discovered as a result of testing and other evidence that was 
coming forward. And essentially, they were run over by 
supervisors, by executives, by lawyers, whatever, which seem to 
reflect a culture that had taken hold that was making 
decisionmakers within these corporations disregard or 
essentially deaf to these claims and concerns, which would have 
the effect of being demoralizing on that part of the work force 
inside these companies.
    Can you speak a little bit to what your investigations and 
the litigation that you engaged in uncovered about a culture 
and the extent to which you think that culture, in some ways, 
continues now aided by an army of consultants and lobbyists and 
others that are acting on behalf of these companies?
    Mr. Bilott. Thank you. You know, it took a while to piece 
this together through a lot of years of combing through 
internal DuPont documents. And I'll speak to DuPont at this 
point. But what we saw in the documents is you've got some of 
the world's best scientists at DuPont and within the Haskell 
laboratories. And they were doing world-class science. They 
were identifying serious health risks from exposure to these 
chemicals. And you had scientists warning the company that 
something needed to be done, steps needed to be taken. Let's 
look for alternatives. Maybe the community should be warned.
    You had lawyers within the company. We had the rare 
circumstance of being able to see some of the internal 
documents from lawyers warning the company, warning the 
business that we ought to look into possibly getting people 
clean water who were drinking this.
    So what you see is you had scientists within the company 
itself who were trying to do the right thing. You had lawyers 
who were trying to advise the company to do the right thing. 
Yet, unfortunately, there's a memo from 1984 that I believe is 
in the record, it's referenced in our attachments, where 
internally the company looks at all these different factors. 
And one of the concerns is this could penalize our business 
going forward. The sales for these materials are increasing. 
And, you know, one of the problems we're dealing with was it 
was not regulated at that time.
    So the decision was made to keep on using the material. Not 
only keep on using it but increase the use and increase the 
emissions out into the environment, despite what the internal 
scientists and lawyers were warning.
    And part of that--you talk about a culture. You're talking 
about a situation where you've got a company that represented 
itself as the science company. And, again, this was a huge 
scientific operation within the company. They had thousands of 
scientists. They were looked to as experts by the Federal 
regulatory agencies. People at EPA. People at FDA. People 
within the Federal regulatory system would look to DuPont to 
tell them the truth about these chemicals.
    You know, so you had a company that was controlling the 
science, was able to give information to the regulators about 
these health risks, and repeatedly made the decision not to do 
so. Business interest won out.
    Mr. Sarbanes. It makes you wonder why the companies would 
hire these experts and scientists in the first place if they're 
not going to give their opinion the weight that it deserved. 
It's also obviously incredibly nearsighted to judge that, even 
from the bottom line of a business perspective, it's going to 
hurt you if you don't address those concerns, because, 
obviously, these companies now are in a compromised position 
because of that culture of concealment that took hold.
    Whether that has become a reflex that simply cannot be 
overcome, we'll see as time goes on. We'll have a chance to 
probe that a little bit with the second panel.
    I'm going to adjourn--or--no. Okay.
    I'm going to yield to Congresswoman Wasserman Schultz, 
who's going to come take the chair and ask her questions for 
five minutes.
    Ms. Wasserman Schultz. [Presiding.] Okay. Thank you.
    Mr. Bilott, I have a question for you. The U.S. Navy, as 
you mentioned, began to raise serious concerns about the 
potential toxicity of firefighting foam and its harmful effects 
on the environment in the 1970's. This was a series of alarming 
reports. I have the report here, and this report by the Navy 
noted, quote, the 3M Company has not provided any useful 
information about the components of FC206, which is one of 3M's 
firefighting foams.
    Would you say that this represents typical behavior for 3M, 
that the company has a track record of trying to suppress 
harmful information related to its firefighting foam and PFAS 
products?
    Mr. Bilott. Thank you for the question. What I can tell you 
is, in our experience in litigation with 3M, one of the very 
first things 3M did was go to the court to get what is called a 
blanket protective order. This is after we had been litigating 
with DuPont, and we were able to get documents from the 
litigation and provide them to the regulatory agencies like EPA 
to warn of the health threat.
    When litigation began against 3M, they immediately sought a 
blanket protective order to prevent any of their internal 
documents from being shared with the public or the regulatory 
agencies.
    And I believe as Ms. Swanson and others within the state of 
Minnesota, you know, can testify to, that kind of conduct 
continued for many years with respect to the perfluorinated 
business, trying to keep the information about the toxicity, 
the risks of these chemicals, within the company.
    Ms. Wasserman Schultz. Thank you. The Navy began working 
with 3M to develop firefighting foams in the 1960's. It turned 
into a very lucrative business deal for the company. The 
military did studies for decades, and DOD only started thinking 
of the chemicals as hazardous in the late 1990's when it 
started to seriously explore alternatives to foams with PFOA 
and PFOS. The Air Force completed a transition to safer foams 
in 2018, and the Army is scheduled to complete the transition 
this year. But the Navy is not scheduled to complete its 
transition until next year.
    Mr. Bilott, I know you can't speak on behalf of all of DOD, 
but in your view, might DOD have made this transition sooner if 
3M had not been so reticent about sharing information with the 
military and the public?
    Mr. Bilott. I believe that probably would be possible. The 
more information that had been made available about what these 
chemicals are, what kind of products they are in, how we are 
all exposed to them, if that information had been made decades 
earlier, I think a lot of what we are talking about here today 
could have been avoided. Yes, the U.S. EPA ended up bringing a 
lawsuit against DuPont for withholding information, and 
specifically said in that claim, if we had been given 
information about PFOA, in particular, earlier, we could have 
begun looking into this decades earlier.
    As we already heard, 3M ended up having to pay a fine as 
well for withholding information from EPA. So----
    Ms. Wasserman Schultz. Yes, I mean, logic just tells you 
that obviously the more transparent they were, the sooner that 
we could have gotten to the bottom of this to address it and 
avoided exposing literally thousands of people to harm from the 
impacts.
    Last question before we adjourn. In the Fiscal Year 
military construction and veterans affairs appropriations bill, 
I made sure--and I chair that appropriations subcommittee--that 
we put in $60 million in additional funding for PFOA and PFOS 
cleanup on military installations. Many military bases have 
unsafe levels of PFAS chemicals in their drinking water. And to 
either of you, Ms. Swanson or Mr. Bilott, what more should be 
done by the Federal Government to protect our men and women in 
uniform? Because they really are impacted severely.
    Ms. Swanson. Madam Chair, I think a number of things can be 
done. One would be to ban the use of PFAS firefighting foam for 
training exercises. I mean, it really is a perversity that much 
of the contamination occurred not by actually fighting fires 
but by training how to fight fires. I think Congress can limit 
the ability of these chemicals to be used in training 
exercises, for example, and then as quickly as possible 
phaseout the chemicals altogether.
    Certainly classifying these substances as a hazardous 
substance would help because the Department of Defense has been 
slow to come to the cleanup table, and if it were called a 
hazardous substance, that would certainly help and eliminate 
the Department of Defense's ability to say we have no 
obligation to do that.
    I think listing these chemicals under the Toxic Release 
Inventory is important as well. That helps all communities so 
that if there is a release of these chemicals, you know, the 
public knows about it, and I think that would be something that 
could be helpful.
    And then I think as well, just helping with the sampling, I 
mean, this is an expensive effort. I just saw, I think, in 
Massachusetts an announcement that the Governor was 
appropriating some money for testing and it was millions of 
dollars, and this is something that all communities are 
grappling with. Some communities are probably better able to 
pay for that than others, but that goes beyond the military but 
could certainly help as well if testing were funded. It could 
be something Congress could do.
    Ms. Wasserman Schultz. Thank you.
    Ms. Swanson. Thank you.
    Ms. Wasserman Schultz. Mr. Bilott, anything to add?
    Mr. Bilott. Nothing to add.
    Ms. Wasserman Schultz. Okay. Thank you. And without 
objection, the Navy report that I referenced will be entered as 
a part of the record.And the panel is dismissed with the thanks 
of the committee, and the committee stands in recess subject to 
the call of the chair.
    [Recess.]
    Mr. Rouda.
    [Presiding.] Without objection, the committee will 
reconvene, and further without objection, the gentleman, 
Representative Kildee, is authorized to participate in today's 
hearing. Glad to have you here.
    Before we start with the witnesses, I did want to make a 
few comments. This is a unique hearing, and I want to say a few 
words before we start with our next panel, which I will 
introduce shortly. We have with us today representatives from 
three corporations, the 3M Company, DuPont, and Chemours, and I 
believe this is the first time these companies have testified 
before Congress on the issue of PFAS chemicals. I would like to 
welcome our panel and thank them for being here.
    We just heard from Lori Swanson and Rob Bilott and how the 
cases they litigated against 3M and DuPont, respectively, 
relied on a long historical record that showed both companies 
knew PFAS chemicals, specifically PFOA and PFOS, were toxic for 
decades, and yet continued to manufacture these chemicals and 
carelessly discharged them into our air, our water, and our 
soil. As a result, Americans unwittingly drank, ate, and 
breathed toxic, man-made chemicals for decades, chemicals that 
can lead to liver disease, thyroid disease, kidney disease, 
cancer, and more. I am hammering home this point because PFAS 
contamination is an issue that is just now starting to get the 
attention it deserves and companies are only recently starting 
to pay for what they have done.
    As I have mentioned, the companies represented before us 
today are American institutions. They have made products 
Americans have been eager to buy, and they have helped create 
many of the conveniences of modern life. But that does not make 
them exempt from basic ethical standards of conduct. Part of 
why American capitalism has survived and thrived for as long as 
it has is because companies have historically treated both 
their workers and the larger American society responsibly and 
fairly, in addition to turning a profit.
    A company is not just a CEO or a head of PR but the 
hundreds and thousands of people all working to serve a 
specific purpose. The relationship between companies and the 
American people is interdependent. Companies make high quality 
products that Americans decide to purchase and each makes the 
other better off. And importantly, each trusts the other 
implicitly to participate in the marketplace in good faith.
    So when that covenant is broken, when the American people 
learn that companies have obscured and suppressed evidence and 
the chemicals they use and manufacture are toxic, it is a 
seismic event. I mean it, because it shapes the foundation of 
democratic capitalism. And that is why we are here today, not 
just to try and help gain some semblance of justice for the 
affected people who lived in contaminated communities, but also 
to ensure companies are held accountable for what can only be 
described as violating the trust of the American people.
    I certainly recognize that our panel here today represents 
companies that have in some cases undergone a lot of changes, 
including, but not limited to, corporate restructuring and 
changes in management over the past several decades.
    Chemours didn't even exist until 2015 when it was spun off 
from DuPont. But our subcommittee doesn't accept that these 
changes in corporate structure let the current incarnation of 
the company off the hook. A company is tied to its past, 
morally responsible for its past, and must answer for its past, 
no matter what changes have occurred from point A to point B, 
in the same way a Nation must contend with and be responsible 
for actions taken decades ago, even though there have been 
changes in government and leadership since then.
    This is Congress, the people's body, not a courtroom, and 
the American people recognize that companies don't just 
disappear into thin air because a few people in a boardroom 
somewhere decided that a merger and a few spin-offs might 
improve the company's bottom line.
    So I hope we don't spend this hearing trying to ping-pong 
responsibility back and forth between two companies or debating 
whether or not the DuPont that exists today is the same DuPont 
that dumped PFAS into the water.
    It also does not work to simply deny the science linking 
PFAS to serious health affects in Americans, and try to leave 
Americans who were poisoned up to their own devices to clean up 
your mess.
    So I hope that we can all start from a common baseline, and 
that is the scientific consensus that PFAS chemicals and 
especially the long-chain chemicals like PFOA and PFAS are 
harmful to human health. Let's not get sucked into the rabbit 
hole of more research needs to be done, because, you know what, 
that excuse can be and has been used to justify inaction, and 
the American people are smart enough to see that excuse for 
what it is.
    It is 2019, and if these chemicals are killing people, 
let's stop using them and let's get them out of our 
environment. I call on each company here today to come to the 
table, work with Congress and the EPA to address this national 
emergency. The lives of each and every American depend on it.
    So with that, I would like to swear the witnesses in. Thank 
you for rising. Do you swear or affirm to tell the truth, the 
whole truth, and nothing but the truth so help you God?
    Thank you. Please sit down. The record shows that the 
witnesses answered in the affirmative.
    We have three witnesses here. We have Daryl Roberts, chief 
operating and engineering officer with DuPont; Denise 
Rutherford, senior vice president of corporate affairs for 3M 
Company; Paul Kirsch, president of fluoroproducts, The Chemours 
Company.
    And with that, we will move to you, Ms. Rutherford, to 
start with your oral testimony for five minutes. Please note 
that the microphones are very sensitive. Make sure you turn it 
on when you're asked a question or when you're presenting. The 
floor is yours. Thank you.

  STATEMENT OF DENISE R. RUTHERFORD, SENIOR VICE PRESIDENT OF 
               CORPORATE AFFAIRS, THE 3M COMPANY

    Ms. Rutherford. Chairman Rouda, Ranking Member Comer, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today. My name is Denise 
Rutherford, and I am the senior vice president of corporate 
affairs at 3M, reporting directly to our chairman and CEO. In 
this role, my responsibilities include sustainability 
initiatives, environmental stewardship, and public policy.
    I joined 3M as a senior research chemist in 1989 after 
obtaining my Ph.D. in chemistry at Colorado State University, 
and I've been a 3Mer for nearly 30 years. We are a company of 
scientists and engineers who are committed to applying science 
to help solve some of the world's biggest challenges.
    Our core mission is to create products that are essential 
to improving people's lives, and the innovations produced by 
3Mers have benefited millions. These innovative products have--
include countless examples that are vital to everyday life, 
from materials in smartphones, low-emission vehicles, 
airplanes, and renewable energy, to our products like EKG 
electrodes, worker safety products, and familiar products like 
Scotch tape and Post-it notes.
    In all our work, we are guided by a deep commitment to 
people, to science, and to the quality and safety of our 
products. This commitment extends to the topic that I'm here to 
testify about today--industry's use of certain per-and 
polyfluoroalkyl substances, or PFAS, and the state of 
scientific knowledge about their effects on people and the 
environment.
    While PFAS is a very small fraction of 3M's overall 
business, we take our stewardship responsibility extremely 
seriously. At 3M, we have spent decades studying PFAS 
compounds, and I'm grateful for the opportunity to share what 
we've learned with the subcommittee and to listen to the 
subcommittee's concerns on this important topic.
    I am proud that 3M has had a--long standing--commitment to 
environmental stewardship. That commitment extends to our 
industry-leading, decades-long effort to improve technologies 
and scientific understanding related to PFAS and includes our 
decision to voluntarily phaseout production of PFOS and PFOA. 
We were an industry leader in this respect and since our 
decision to phaseout these compounds almost 20 years ago, 
others in the industry eventually followed suit.
    As a result, the most recent CDC testing shows that levels 
of PFOS and PFOA in humans have declined by more than 70 
percent. Seventy percent. This shows that progress is possible, 
and we are headed in the right direction. We are committed to 
continuing down that path and working with Congress and 
regulators to develop a collaborative, science-based approach 
to concerns about PFAS. In my written testimony I outlined five 
key principles of our proposed path forward.
    First is our commitment to ongoing remediation at sites 
where we produced or disposed of PFAS. We believe this is an 
important responsibility as a manufacturer and as a member of 
the communities where we live and work.
    Second is our commitment to ensure appropriate disposal of 
firefighting foams known as AFFF. 3M's producing and selling 
AFFF more than a decade ago. We will continue to work with our 
former customers to ensure that unused 3M firefighting foam is 
properly handled, and when appropriate we will take that 
product back from those former customers.
    Third is the need for nationwide science-based regulation. 
We support EPA's PFAS action plan and Congress's efforts to 
expedite timelines for the EPA to decide whether to set 
nationwide drinking water standards.
    Fourth, we propose establishing a clearing house for 
sharing best practices on detection, measurement, and 
remediation.
    Finally, we call for a coordinated research into PFAS. We 
believe that a respected, established, and independent 
scientific body should be called upon to conduct a 
comprehensive review of the existing science on PFAS, inform 
the public of the findings, and set an agenda for continued 
research.
    If we come together, if all relevant stakeholders can come 
together, we can develop a path forward. We commit to working 
with Congress and concerned parties. As an active, responsible 
participant in the dialog and to continuing to drive science-
based progress through appropriate actions.
    Thank you for the opportunity to present this testimony. We 
are looking forward to working with the subcommittee.
    Mr. Rouda. Thank you, Ms. Rutherford.
    Mr. Kirsch, five minutes for your opening statement.

  STATEMENT OF PAUL KIRSCH, PRESIDENT OF FLUOROPRODUCTS, THE 
                        CHEMOURS COMPANY

    Mr. Kirsch. Thank you Chairman Rouda, Ranking Member Comer, 
and members of the subcommittee for inviting me today to 
testify on behalf of The Chemours Company.
    My name is Paul Kirsch, and I'm the president of the 
fluoroproducts business at Chemours, my role since I joined the 
company in June 2016. I also serve as the executive sponsor for 
the Chemours corporate responsibility commitments.
    Like you and others who have come before this subcommittee, 
I want to leave my children and grandchildren a cleaner, better 
world. I don't merely empathize with public concerns over the 
presence of PFAS in drinking water and the broader environment, 
I share it. The public is rightly concerned over drinking water 
quality, and Chemours, like all companies, must do its part. 
Let me assure you, our entire team takes very seriously the 
obligation to manage PFAS compounds and our manufacturing 
processes in a responsible way and ensure they are safe for 
their intended use.
    I have been asked to provide some background regarding the 
formation of Chemours and the details of its spin-off from 
DuPont. Chemours was established on July 1, 2015, as an 
independent, publicly traded company. From day one, we faced 
serious challenges given how DuPont unilaterally designed the 
spin-off, including a deliberate disproportionate assignment of 
two-thirds of DuPont's environmental liabilities, 90 percent of 
its active litigation, as well as an obligation to indemnify 
DuPont for all assigned environmental liabilities should any 
regulatory, public, or private plaintiffs seek to hold DuPont 
accountable.
    And if that wasn't enough, DuPont mandated a $4 billion 
payment from Chemours in the form of a dividend. To our 
knowledge, there has been no other spin-off like this in terms 
of debt, as well as the indemnification provisions which have 
no cap on time or money.
    DuPont designed the separation of Chemours to create a 
company where it could dump its liabilities to protect itself 
from environmental cleanup and related responsibilities. From 
my written testimony, you can clearly see that despite the 
financial condition DuPont left us in at the time of the spin-
off, and the legacy issues we inherited, Chemours moved quickly 
and with a sense of urgency to transform the company and take 
action against these--to address these historical issues.
    At Chemours we live up to our commitments with actions, not 
just words. The $200 million investment we have made in our 
Fayetteville, North Carolina facility, is just an example of 
that. From this investment, we are creating a best-in-class 
emissions control facility that can serve as a model for other 
chemical manufacturing facilities around the globe. This 
facility took tens of thousands of hours to design and will 
reduce air and wastewater emissions of all PFAS by 99 percent 
or greater by the end of this year.
    The commitment to reduce air and wastewater emissions of 
all PFAS by 99 percent or greater is not just for our 
Fayetteville facility but for all of our sites. It's part of 
our ten ambitious corporate responsibility commitments that we 
announced a year ago. These commitments are both impactful and 
measurable.
    Besides the PFAS emission goal, a first in the chemical 
manufacturing industry, these commitments also include 
environmental goals for greenhouse gases and landfill 
intensity. While Chemours has only existed as an independent 
company for four years, we operate with a mature understanding 
that economic progress and environmental protection are not 
contradictory. They can and they must go together.
    The products we make enable critical components used in the 
medical, aerospace, automotive, semiconductor, communications, 
and energy industries. For example, a major product produced at 
our Fayetteville site not only enables renewable energy 
storage, but it would be critical in enabling the hydrogen 
economy with the next generation of fuel cells for the 
automotive market.
    And the types of commitments we have made enable us to 
manufacture our products in ways that meet the expectation of a 
world that demands more. We believe collaboration and 
transparency are critical to better understanding this issue 
and addressing public concern. We support the Federal 
legislative efforts currently under way and their goals to 
develop a safe, regulatory framework for PFAS compounds using a 
science-based approach.
    Chemours provided input to the Senate Environment and 
Public Works Committee on the PFAS provisions in the Senate 
NDAA bill, and we support the measures that resulted from that 
process in the Senate bill as passed.
    Chemours also supports EPA's process to determine whether 
legacy, long-chain PFAS chemicals should be designated as 
hazardous substances under the Superfund law. However, we do 
understand Congress may move on this issue legislatively and 
would welcome the opportunity to engage with Members should 
this be the case.
    In closing, we can't change the actions or decisions taken 
by others in the past which continue to impact us today. We can 
only control the decisions in front of us. We believe that our 
record, even in our earliest days as a new company demonstrates 
our commitment to being a different kind of chemistry company, 
one dedicated to taking a leadership role in environmental 
stewardship.
    Thank you again for the opportunity to be here today. I 
look forward to your questions.
    Mr. Rouda. Thank you, Mr. Kirsch.
    Mr. Roberts, the floor is yours for five minutes of opening 
testimony.

  STATEMENT OF DARYL ROBERTS, CHIEF OPERATIONS & ENGINEERING 
                OFFICER, DuPont DE NEMOURS, INC.

    Mr. Roberts. Thank you, Mr. Chairman, Ranking Member Comer, 
and members of the subcommittee.
    My name is Daryl Roberts, and I am the chief operations and 
engineering officer for DuPont. I attended Howard University on 
the ROTC scholarship and earned a degree in chemical 
engineering. I served as a commissioned Army Reserve officer 
for eight years, during which time I started my career at 
Eastman Kodak and earned a master's in occupational health and 
safety from the University of Rochester, and an MBA from 
Rochester Institute of Technology. I then worked in health and 
safety roles in senior leadership for Arkema, a diversified 
chemicals company.
    Just over a year ago I joined DuPont because I was and 
still am excited about the opportunity to work for a mission-
driven company that is focused on making the planet a better 
place for my daughter's generation and beyond.
    The new DuPont appreciates this opportunity to address the 
subcommittee's questions about PFAS. We're pleased to be here 
today to endorse specific legislative proposals and 
congressional efforts to protect public health and the 
environment.
    Let me first explain why I refer to my company as the new 
DuPont. E.I. du Pont de Nemours and Company, historically known 
as DuPont, has evolved throughout the course of its history, 
often adding and removing business lines. For example, in 2004, 
the fibers business became a separate company called Invista. 
And in 2013, the coatings business became a separate company 
called Axalta. In 2015, the performance chemicals business, a 
long-held business within the DuPont family, became a separate 
company called Chemours.
    Chemours took the fluoroproducts technologies, operations, 
sites, customers, technical expertise, and executive leadership 
in the formation of its new company. Their CEO ran the business 
line. Their executives made decisions about the business line 
for many, many years, and their plants made the products we are 
talking about today.
    Most recently, historical DuPont merged with the Dow 
Company and then split into three separate, independent 
companies--Dow, Corteva, and the new DuPont, which I represent.
    With respect to Chemours, which has become a very 
profitable, free-standing business, I would say no one wants to 
hear two companies argue about litigation. This is not about 
money here today. They want to hear about how we are going to 
work with Congress on legislation, which is what the new DuPont 
wants to do.
    The new DuPont is a specialty products company dedicated to 
solving some of the world's most pressing challenges, including 
those identified in United Nations sustainable development 
goals. For example, to address the world's food shortages we 
have developed technologies to increase food shelf life. To 
address greenhouse gas emissions, we have developed materials 
to lightweight cars and planes. And we can all agree that our 
first responders deserve the very best protective equipment, so 
we continue to make the best-in-class performance fibers for 
flame-resistant materials and body armor. We do all of this by 
employing more than 14,000 Americans across 28 states.
    The focus of today's hearing is PFAS. The new DuPont does 
not manufacture PFAS. Like many other companies today, we use 
some PFAS materials. However, our use is extremely limited. 
Nevertheless, we recognize these are important issues, and 
that's why we support legislative proposals addressing PFAS. 
They are: Requiring EPA to set a national primary drinking 
water regulation for PFAS within two years; requiring toxic 
release inventory reporting on certain PFASes including PFOA 
and PFOS; requiring EPA to set pretreatment and affluent 
standards for PFAS by 2022; and requiring EPA to list PFOA and 
PFOS as hazardous substances within one year under CERCLA. We 
encourage Congress to enact these proposals as part of the 
National Defense Authorization Act.
    While Congress considers this legislation we're moving 
forward with our own commitments. As this subcommittee 
recognized in their prior hearing, the vast majority of PFAS 
contamination is caused by firefighting foams. We do not 
manufacture or sell firefighting foams and have never done so. 
However, like countless other companies, we purchase foams for 
protection of our facilities. We are committed to ending all 
use of PFAS firefighting foams at our facilities by the end of 
2021.
    We have also reaffirmed our commitment to not make, buy, or 
use long-chain PFAS materials. We will eliminate by the end of 
this year our limited use of long-chain PFAS in a recently 
integrated operation which is the only instance where we use it 
today. And we're immediately working to eliminate it.
    We will provide free access to our product steward 
software. We will also grant free licenses to others to what--
that want to use our PFAS remediation, using our water-
treatment technologies, which we'll make available for free, 
and we will provide research funding for PFAS remediation. And, 
of course, we'll continue to fulfill our commitment to 
remediate our sites.
    We look forward to today's hearing and how we can work 
together to further our shared goals of sustainability, 
innovation, and responsible product stewardship.
    Mr. Rouda. Thank you, Mr. Roberts.
    The chair now recognizes Representative Tlaib for five 
minutes of questions.
    Ms. Tlaib. Thank you, Mr. Chairman. As we discussed in the 
earlier subcommittee previous kind of hearings, we've also 
discussed DuPont's own scientific research that demonstrated 
links between exposure of PFAS and a variety of very serious 
health concerns.
    So, Mr. Roberts, I wanted to start by asking about DuPont's 
current PFAS-related responsibilities. Is it your opinion that 
since the 2005--is it Chemours spin-off--new DuPont is no 
longer involved in development and marketing PFAS chemicals?
    Mr. Roberts. Congresswoman, that is correct.
    Ms. Tlaib. So regardless of all the money DuPont made over 
the decades with PFAS chemicals, is it your opinion that new--I 
can't stand that you guys call it----
    Mr. Roberts. New DuPont.
    Ms. Tlaib [continuing]. DuPont, which is right now 
capitalized with those profits, is not liable for the unpaid 
cost of cleaning up contamination and compensating for the 
human injuries that DuPont caused?
    Mr. Roberts. Congresswoman, what we're accountable for is 
to represent and to ensure that we cleanup sites which we own 
and operate. So we are----
    Ms. Tlaib. So even though you contaminated other sites, you 
don't want to pay for that?
    Mr. Roberts. Congresswoman, I would----
    Ms. Tlaib. How about injuries, people dying?
    Mr. Roberts. Congresswoman----
    Ms. Tlaib. Medical costs?
    Mr. Roberts. Yes, if I may? Congresswoman, by all means, 
the sites that we owned and operate, we're fully committed to 
continue working to remediate.
    Ms. Tlaib. No. It's lawyer talk when you say owned and 
operate. I'm talking about when you contaminate other 
properties, you walk away. You're not going to clean those up?
    Mr. Roberts. Congresswoman, we did not walk away from those 
sites. I will be very clear in saying that our performance 
chemicals division of DuPont, which was renamed as Chemours, is 
still operating those sites.
    Ms. Tlaib. Okay.
    Mr. Roberts. So the same individuals that were operating 
those sites, that were making decisions on those sites, that 
were--it was extracting profit from those sites and are still 
extracting profit from those sites, as I read in the written 
testimony from Chemours, are fully committed to cleaning them 
up. So----
    Ms. Tlaib. So in spite of growing scientific consensus 
within the company that PFOA was toxic and was contaminating 
local environments, DuPont purposely hid the research from 
affected communities and government regulators. Glen Evers, a 
former DuPont research scientist testified before this 
committee, subcommittee, about DuPont's effort to suppress this 
research on the toxicity of PFAS chemicals and DuPont's effort 
to limit Mr. Evers' opportunity to discuss his research, as 
well as retaliation against him for discussing his work with 
the EPA.
    Mr. Roberts, are you aware of these efforts to suppress 
DuPont's own employee's research concerning the company's 
development, use, and the health risk of PFAS chemicals?
    Mr. Roberts. Congresswoman, I can tell you that I'm not 
aware of that as I was not present at that time. What I can 
tell you is that the company that I work for is fully committed 
to working----
    Ms. Tlaib. Sure.
    Mr. Roberts [continuing]. in a way where we're 
transparent----
    Ms. Tlaib. Does DuPont----
    Mr. Roberts [continuing]. where we work with our 
communities in a way where they understand what we do. We 
understand our requirement to ensure----
    Ms. Tlaib. So you're not aware of that. But is DuPont, the 
original manufacturer of Teflon, in any way responsible for 
shielding critical information from the public?
    Mr. Roberts. Congressman, no company should shield critical 
information from the public. The company that I work for is 
completely focused on making sure that when we have 
information, that we communicate it, that we work and that our 
product stewardship efforts are critical in what we do every 
day, that the communities in which we operate, that we share 
information, that we work with our regulators to establish the 
right regulation. That's why we're here today----
    Ms. Tlaib. I understand.
    Mr. Roberts [continuing]. to completely support 
legislation----
    Ms. Tlaib. Well, I'm here because I represent 650,000 
people that are being harmed by PFAS exposure, and we're trying 
to get to the truth here and trying to bring it forward, not 
talk about who owns what or whatever. We're trying to figure 
out who is responsible, right?
    So more recently, in 2009 DuPont received approval from the 
Environmental Protection Agency, EPA, to start making GenX 
commercially as a replacement for PFOA, which persists 
indefinitely in the environment and is linked to cancer and 
other serious illnesses.
    The agreement passed to Chemours in 2015 when DuPont formed 
the company from business units. That included the 
manufacturing of GenX at the--I think it's Fayetteville--works 
plant in North Carolina. Mr. Roberts, is this a depiction 
accurate? Is it correct that DuPont's GenX manufacturing passed 
to Chemours in 2015?
    Mr. Roberts. Congresswoman, it is correct that the Chemours 
company owns and operates the facility which is in 
Fayetteville. That's correct.
    Ms. Tlaib. Okay. Mr. Kirsch, so, is it also accurate to 
stay that it is new DuPont's position, or whatever, that only 
Chemours is now responsible for what was once DuPont's GenX 
manufacturing operations?
    Mr. Kirsch. I believe, Congresswoman, that's what's written 
in the spin-off document, yes.
    Ms. Tlaib. In our earlier subcommittee hearing, we heard 
from Emily Donovan, a North Carolina resident, living near Cape 
Fear River, which is dealing with PFAS contamination, including 
PFOA, PFOS, and GenX chemicals. Ms. Donovan expressed concerns 
that have emerged in her local community related to that 
exposure and these emerging PFAS chemicals in links to cancers, 
immune disorders, and so forth. Dr. DeWitt even described GenX 
chemicals as quite toxic and not safe.
    So, Mr. Roberts, the people in North Carolina who live 
this, live by this plant, are very sick, and DuPont played a 
role in poisoning them. So in my opinion, I think it means that 
DuPont needs to help Chemours fix that crisis. And so will you 
commit today to working with Chemours to clean up the water 
works plant in North Carolina?
    Mr. Roberts. Congresswoman, we're here today to commit to 
clean up the sites that we own and operate. Chemours is fully 
capable of cleaning up the sites that it owns, operates. It 
continues to drive profits to its shareholders by operating. 
They're fully--as we've heard from them, from their CEO, from 
their leadership, they're in great financial position. There's 
no reason that they would require our help to clean up their 
sites.
    Ms. Tlaib. Thank you, Mr. Chairman.
    Mr. Rouda. Thank you.
    The chair now recognizes Representative Gibbs.
    Mr. Gibbs. Thank you, Chairman.
    Ms. Rutherford, I think I heard you say in your oral 
testimony that 3M has ceased producing PFOS and PFOA. Is that 
correct?
    Ms. Rutherford. Yes, Congressman, that's correct.
    Mr. Gibbs. How long ago was that?
    Ms. Rutherford. Congressman, we announced that phase-out in 
May of the year 2000, and we completed the phase-out within 
just a couple of years after that, for those two compounds--
PFOA and PFOS.
    Mr. Gibbs. Did you do that based on your research, or were 
you forced to do that?
    Ms. Rutherford. No, we did this voluntarily, Congressman. 
Thank you for that question. We discovered in the late 1990's 
as our testing capabilities improved, we were able to find 
these materials in the environment in places that we didn't 
expect to find them and at concentrations, really low 
concentrations. But as we moved forward, we saw that these did 
bioaccumulate, meaning that they would buildup over time with 
continued exposure, for these two particular materials. We 
voluntarily then took the action to phaseout--we worked closely 
with the EPA, the Clinton EPA at that time, to develop that 
exit plan and to communicate our rationale for doing so. We did 
this without any information, any awareness. There is still no 
cause-and-effect relationship for any adverse human----
    Mr. Gibbs. Okay. Thank you. I guess for all three of you--I 
mentioned this in the first panel--there's 5,000 known 
substances that are under this classification of PFAS, and are 
all these chemicals the same structure? Is there some--my 
understanding, there's some that testing would be tough, and 
I'd just like to hear your reaction about, should we handle 
this as a class, or should we figure out which ones might be 
harmful to the environment and human health or--you see where 
I'm going here?
    Mr. Roberts. Congressman, we don't believe all these 
chemicals are the same. That's why we support legislation to 
list PFOA and PFOS, and only those two, as hazardous substances 
under CERCLA. That's further than the other companies here are 
willing to go today, but that's what we believe is correct. 
What we know about those chemicals is that they're 
biopersistent. That's enough to know that there's a clear 
concern for those chemicals within society at this point in 
time. And we feel for that reason that they should be 
regulated.
    On the larger class, we believe it's appropriate to have 
the EPA continue to gain information for us to drive science-
based regulation once we have additional data on the larger 
class of chemicals.
    They can't all be looked at the same, but I think we know 
enough about those which are called C8s or extremely 
biopersistent, to say that that's an appropriate action at this 
point in time.
    Mr. Gibbs. Now, with all those 5,000 different compounds, 
how has the interaction between the companies and the EPA, how 
has that interaction worked to develop the science-based and 
get the real facts of what's going on, what compounds might be 
harmful and what might not be? Anybody can answer, all three of 
you, whoever wants to.
    Ms. Rutherford. Congressman, I'd be happy to address that 
question. As we worked with the EPA over many, many years and 
many administrations, we have engaged on a scientist-to-
scientist basis, and that work has continued to share the 
studies we have, the body of evidence in the public domain, as 
well as the work conducted by our own EPA to do risk 
assessments as part of the process for setting a nationwide, 
science-based standard. That work has continued.
    We appreciate and support the new action plan to do that in 
an expedited manner. We believe our country is best served to 
continue to allow the EPA to exercise that process and not to 
proceed with a hazardous designation under CERCLA unless it is 
decided by the EPA through their normal process.
    Mr. Gibbs. Okay. Go ahead, Mr. Kirsch.
    Mr. Kirsch. Congressman, we agree that the class of the 
5,000 substances that represent PFAS are not all the same. They 
vary in their uses from the pharmaceutical industry, through 
aviation, as I mentioned earlier, and automotive. So regulating 
them as an entire class, we believe, would be a mistake.
    To the question about how we work with different regulatory 
bodies, we've spent time--or we are spending time, even in the 
present, with different congressional bodies, both in the House 
and the Senate, as well with the EPA and with the state of 
North Carolina as a result of the efforts that we put in place 
there.
    Mr. Gibbs. Okay. Well, I think, like I said earlier, we 
need to make sure that we're protecting the environment and 
human health, but at the same token, make sure we're not 
throwing the baby out with the bath water, and I don't think a 
lot of people realize that there's this many thousands of 
compounds under this general classification.
    So we have to be careful how we handle that, Mr. Chairman, 
and I think that's a prudent point because a lot of those 
compounds are actually, I think, beneficial, and we need to 
figure out the ones that aren't. That's where the science comes 
in. I know somebody made a comment about science is an excuse, 
and I don't think that's true. I think we need to get the facts 
and do what's right for everybody. So I yield back. Thank you.
    Mr. Rouda. Thank you. The chair now recognizes 
Representative Kildee. You're up.
    Mr. Kildee. First of all, thank you, Mr. Chairman, for 
allowing me to participate in this hearing and thank you 
especially for your leadership on this question and for holding 
what has been, I think, a very informative series of hearings. 
I'm not going to be redundant by asking some of the same 
questions. I'd like to make a bit of a statement, but I want to 
clarify something before I go forward.
    Mr. Roberts, could you reiterate what you said about what 
compounds should, in your opinion, the opinion of your company, 
should be regulated and under CERCLA?
    Mr. Roberts. Sure. Fluorosity compounds of PFOA and PFOS, 
which are the two C8 chemistries which are considered long-
chain. They are the chemistries which we recognize as being 
highly biopersistent, meaning they have half lives that can be 
greater than a year. Because of that connection to 
biopersistence, that's the reason why we believe that those are 
the chemicals that should be considered for CERCLA.
    Mr. Kildee. I thought that's what I understood you to say, 
and I guess I'm a little bit puzzled. I think you mentioned, 
Mr. Roberts, that Chemours has adequate financial resources to 
deal with any financial liability for cleanup or for any 
liability that might emanate out of health concerns as a result 
of these chemical contaminants. Mr. Kirsch, is it your position 
that Chemours was provided with adequate financial resources as 
a part of the spin-off to deal with what obviously would be a 
pretty significant cost to deal with cleanup and other 
liability issues?
    Mr. Kirsch. Thank you for the question, Congressman. The 
answer would be a clear no, and I think the amended complaint 
that you all received has a couple of interesting examples--and 
I will mention one, and it gets back to the North Carolina 
situation. The maximum liability that DuPont estimated for 
North Carolina in the spin-off was $2.09 million. And as I 
mentioned in my oral remarks, that cleanup effort and stopping 
the emissions in that facility will cost us well north of $200 
million.
    Mr. Kildee. So this is the concern that many of us have, is 
that we hear from one witness who has off-loaded their 
liability, that they think that the chemicals in question 
should be regulated under CERCLA, but that the company that 
does have liability has not been given adequate resources to 
deal with that obligation. And listening to the witness 
representing 3M, you want to get credit for the decision to no 
longer produce these dangerous chemicals voluntarily, but in 
the same breath, want us to believe that there's no science 
that says that these chemicals are dangerous at all. So if 
you're responsible for the creation and the promulgation of 
these chemicals in the environment, you can off-load the 
obligation to somebody else who doesn't have enough resource, 
and if you create these chemicals that then contaminate people 
and affect their lives, you can take credit for the fact that 
you're taking it out of commerce and no longer putting it into 
the environment, but on the same token say that there's nothing 
saying this is dangerous. This is ridiculous. This is 
ridiculous. We have a huge problem in this country. The people 
I represent, for example, in the town of Oscoda, Michigan, who 
hosted an Air Force Base, the Wurtsmith Air Force Base, had 
their groundwater contaminated, have had their way of life 
affected. It's a part of Michigan. It's right on the shore of 
Lake Huron. It's a beautiful part of our state, where the 
culture is one of hunting and fishing, where now you can't hunt 
the animals because the groundwater has contaminated them. You 
can't eat the fish that you catch because they're too dangerous 
to consume. And we have companies that have benefited and made 
millions and billions of dollars by selling these products into 
commerce, who now want to point the finger at somebody else or 
say, well, we're not going to produce these chemicals anymore, 
but believe me, there's no science that says they're safe. I 
take issue with that. There's plenty of science. There's plenty 
of science out there that demonstrates these are harmful 
chemicals and dangerous for human consumption. Otherwise, you 
wouldn't have taken them off the market in the first place.
    Mr. Chairman, thank you for holding this hearing. This has 
been quite elucidating, and I think what we're hearing today, I 
think, makes the case that we can't sit and wait for voluntary 
action, even though I think obviously we would appreciate 
action. Congress has to act. It's the only way we're going to 
get to this problem and at a scale equal to the problem. Thank 
you very much.
    Mr. Rouda. Thank you.
    The chair now recognizes Representative Gosar for five 
minutes of questioning.
    Mr. Gosar. Thank you, Mr. Chair.
    Ms. Rutherford, what role does science play in EPA's 
chemical regulatory process, and what type of information does 
EPA consider as part of this process?
    Ms. Rutherford. Yes. Thank you for the question, 
Congressman. The EPA has a very rigorous, scientific process 
that is fundamental to its decisions. As I understand it, our 
scientists work closely with those scientists on a variety of 
materials. You can appreciate for a company that has 50,000 
different products, we are engaged with regulators. We take our 
responsibility for our products and the safety of those 
products very, very seriously. And as we have engaged with 
them, the EPA has been able to develop processes that set 
appropriate regulations and nationwide science-based standards 
for us over many years.
    Mr. Gosar. So is there legal or other possible 
ramifications if the EPA does not base its regulatory actions 
on sound science?
    Ms. Rutherford. Congressman, that's an interesting 
question. I'm not a legislator or a member of the EPA. Our 
concern would be that our actions speak for ourselves. We've 
been engaged with our communities in remediation at our own 
manufacturing facilities and dealing with these issues over 
years. It has resulted in remediation, improving water quality 
in our communities. The blood levels in the Americans has 
dropped by more than 70 percent. Actions speak louder than 
words. We're concerned that should legislative action result in 
a lot more conversation and arguments, it would prevent us from 
taking action in the communities and improving water quality.
    Mr. Gosar. So I guess my question is, as, you know, it goes 
about sound science, is, 3M's protocol, were they instrumental 
in actually constructing some of the protocols that are found 
at the EPA?
    Ms. Rutherford. Congressman, I wouldn't be so bold as to 
say we're that instrumental, but we have been engaged in 
testing these materials over many years. It was our 
scientific--our scientists--excuse me--who were instrumental in 
developing some of the analytical techniques that allow us now 
to detect these materials down to the parts-per-trillion level. 
And so as we are engaged in testing and in active remediation 
around our own sites, we are able to detect these materials, 
and that is a technique that was supported by 3M and many 
others in the industry, quite honestly, to enable the EPA to 
further its--the interest of the Americans addressing water 
quality.
    Mr. Gosar. So what you're telling me is, the technology has 
changed to evaluate the chemistry, the evaluation, to finding 
bioaccumulation? That's evolved, hasn't it? I mean, once upon a 
time, science said that the earth was flat. Is it flat?
    Ms. Rutherford. Congressman, we all know that's not the 
case. The world is round. And, you know, our approach in 
advancing the science has evolved over time. When we first 
produced these materials, we conducted certain rig tests that 
were required by the EPA. Additional tests are now required. We 
are absolutely committed to that degree of compliance, both the 
standards and our understanding of these materials. Our ability 
to detect today is far beyond what it was 20 to 30 years ago.
    Mr. Gosar. Well, most of the time, rules and regulatory 
state actually comes from reaction, not being proactive. So how 
do you look at this aspect in being proactive? I mean, you 
know, it's kind of hard to see into the future, but once again, 
science gives us some predicated outcomes. You know, 
particularly a scientific method that if I perform certain 
processes, I get a result, and I turn them back over to you. 
You do the same processes and get the same result. That's how 
science has evolved to today. So how have you looked at your 
process that's been proactive versus reactive?
    Ms. Rutherford. Congressman, that's an interesting 
perspective, and what I can say is that 3M conducts our own 
research. We also support, by terms of grants to universities, 
for them to conduct research in an unrestricted way. So that 
research continues to expand the body of knowledge. Those are 
peer-reviewed journals. That helps to advance the understanding 
that we all have of these particular materials in the 
environment.
    We have been studying this for many, many years, our own 
work force, scientific studies. We see there are associations 
in these studies. We see a lot of inconsistencies in those 
data, and the data simply don't show any cause-and-effect 
relationships at historical levels of these materials in the 
environment, either the older materials or the newer materials, 
but yet we continue to advance the science so that we can truly 
understand the situation.
    Mr. Gosar. One indulgence real quick.
    Are there other industries that your metrics have been 
beneficial to, other than the chemistry, like DuPont and 3M?
    Ms. Rutherford. Sorry. Could you----
    Mr. Gosar. Are there other industries that have benefited 
from your quantitative evaluations in a proactive manner?
    Ms. Rutherford. Certainly. We're very active in several 
industries where precise measurements are required. For 
instance, the advances in electronics have been enabled by some 
of our materials going into electronic devices--our 
transportation, low-emission vehicles, aerospace. All of those 
industries benefit by the dedication of all of our scientific 
companies here in the U.S.
    Mr. Gosar. Mining as well, right?
    Ms. Rutherford. Absolutely.
    Mr. Gosar. Thank you.
    Mr. Rouda. Thank you. The chair now recognizes 
Representative Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair. Thank you for 
holding this hearing and ensuring that we don't let this go 
until we get some real answers on this issue. This committee 
has heard stories of families whose babies have had their 
brains damaged for their entire lives by PFAS chemicals, women 
who have been rendered infertile for their entire lives, stage 
4 cancer, people whose families have been torn apart by lupus 
and diabetes, and have lost many family members to this 
disease. Ms. Rutherford, I want to spend some time here 
discussing some of 3M's current tactics when it comes to 
accepting responsibility for PFAS--or not accepting 
responsibility for PFAS contamination. Are you aware of 3M's 
membership to an organization entitled Responsible Science 
Policy Coalition?
    Ms. Rutherford. Congresswoman, we are members of many trade 
associations, and that is one of those.
    Ms. Ocasio-Cortez. How much money does 3M give to this 
coalition?
    Ms. Rutherford. I'm not aware of that actual number, 
Congresswoman.
    Ms. Ocasio-Cortez. Okay. Are you aware of any other 
chemical companies that are members of the Responsible Science 
Policy Coalition?
    Ms. Rutherford. Again, I will reiterate, we're members of 
many trade associations. We do that in order to advance our 
perspective--share our perspective, and to share our science 
and----
    Ms. Ocasio-Cortez. Thank you.
    Mr. Chairman, I would like to enter into the record a 
presentation by the Responsible Science Policy Coalition dated 
July 24th, 2018, which lists 3M as a key member.
    Mr. Rouda. Without objection, so moved.
    Ms. Ocasio-Cortez. Thank you very much. In the lobbying 
materials by the coalition, it states, and I quote, the weight 
of current scientific evidence does not show that PFOS or PFOA 
cause adverse health effects in humans at current rates of 
exposure. Ms. Rutherford, do you agree with this statement?
    Ms. Rutherford. Congresswoman, I absolutely agree with that 
statement.
    Ms. Ocasio-Cortez. This statement goes against 3M's own 
scientists who for decades have been studying these chemicals 
and terming them, quote, toxic. For instance, in 1999, Richard 
Purdy, one of 3M's own scientists and environmental specialists 
resigned his position in protest calling PFAS, quote, the most 
insidious pollutant since PCB. Additionally, this 
administration's agency for toxic substances and disease 
registry released a toxicology profile of PFAS chemicals. In 
the profile the agency states, quote, the available 
epidemiology study suggests associations between perfluorical 
exposure and several health outcomes. They then go on to list a 
myriad of serious health outcomes, including increased risk of 
thyroid disease, liver damage, increased risk of decreased 
fertility, and decreased antibody response to vaccines.
    Even during the state of Minnesota's lawsuit against 3M, 3M 
claimed that there were no proven negative health effects of 
PFAS exposure on human health. Mr. Rutherford--or Ms. 
Rutherford, are you aware of the efforts made by 3M in the past 
to conceal the risks of PFAS for more than 60 years?
    Ms. Rutherford. Congresswoman, I cannot--I am not familiar 
with that. That goes against everything I know about my company 
as a scientist over these past 30 years. We are committed to 
advancing the science and to sharing information to the public 
domain.
    Ms. Ocasio-Cortez. And if that's the case, why is 3M taking 
a position of denying the scientific findings of its own 
scientists? A large part of the scientific community and the 
current administration by joining organizations that are 
spreading misinformation about PFAS.
    Ms. Rutherford. Congresswoman, respectfully, I disagree 
with that characterization. We have a team of epidemiologists 
and toxicologists who do report to me. I've spent hours and 
hours with them, going through these studies. There is--there 
are a lot of inconsistencies in the data. We accept this that 
there are associations which are like leads, places that we 
should continue to look, and we are, in fact, doing that. But 
when we look at that evidence, there's no cause and effect for 
adverse human health effects at the levels that we are exposed 
to as a general population.
    Ms. Ocasio-Cortez. Right. So it may not be causal, but it's 
very associative, I see here. Has 3M or any agent of 3M taken 
meetings in the last year with lawmakers and told them or their 
staff that there's no negative health effects of PFAS on human 
health?
    Ms. Rutherford. Congresswoman, we have a very active team 
of representatives here working with policymakers to share 
information. We are very transparent about that. We do that, we 
report and register all of our representatives----
    Ms. Ocasio-Cortez. But is that information--has 3M or an 
agent of 3M told lawmakers that there is no negative health 
effects to PFAS?
    Ms. Rutherford. We have shared with legislators, 
policymakers, Congresswoman, the same statement that you have 
repeated back to me, that the weight of scientific evidence 
shows no adverse human health effects at current or former 
levels.
    Ms. Ocasio-Cortez. So 3M is telling lawmakers to not be 
concerned about this?
    Ms. Rutherford. No. We are saying that we should be 
concerned. We do request additional studies, but what we can 
say is, we've been studying our own work force for more than 40 
years. These are people who had occupational exposure at much 
higher levels than the general population. We do not see, 
looking at the scientific evidence of our own work force, 
adverse human health effects.
    Ms. Ocasio-Cortez. And has this point ever been 
communicated to senior officials of the Trump administration?
    Ms. Rutherford. I am not aware of that, Congresswoman. We 
have been working with regulators and policymakers.
    Ms. Ocasio-Cortez. Thank you very much.
    Mr. Rouda. Thank you.
    The chair now recognizes Representative Keller for five 
minutes of questions.
    Mr. Keller. Thank you, Mr. Chair.
    I'm glad to be here today to learn more about the effects 
of PFAS. And it's all our concern that we have a healthy 
community, healthy water, and a healthy environment.
    Dr. Rutherford, you know, I've been listening to the 
exchange going back and forth about PFAS and potential harms. 
And I heard you say, and I want to make sure I understood it 
correctly, that in your work force, you hadn't seen that the 
exposure of the employees of 3M had had the negative impact on 
their health. Is that correct?
    Ms. Rutherford. Congressman, that is indeed correct. And 
thank you for the question. We've been, as all chemical 
manufacturers will do, monitoring our own work force over many, 
many years dating back into early operations both in Minnesota 
and in Alabama and other facilities. We see no adverse human 
health effects associated with exposures to which they were 
exposed. And, again, that's many times higher than general 
population.
    Mr. Keller. Now, this wouldn't be just your view or 3M's 
view. Do others believe this to be the case as well, such as 
any government agencies?
    Ms. Rutherford. Congressman, many governments have studied 
this issue. It's a very complex issue, and it's worthy of 
further study. Other governments, such as Australia Department 
of Health, Canada's Ministry of Health, have made similar 
conclusions that the data are inconsistent, yet that the data 
available today show no conclusive evidence of cause-and-effect 
relationships creating adverse human health.
    Mr. Keller. And, you know, just some fluoropolymers, you 
know, compounds of PFAS, they're used in a wide variety of 
things, even medical devices and those kind of things. Is that 
correct?
    Ms. Rutherford. Congressman, that's correct. These 
fluoropolymers are used in many very important applications, 
such as aircraft engines, low emission vehicles, renewable 
energy, just to name a few, electronics.
    Mr. Keller. But in the case of medical devices, you know, 
that would be something that would be covered under the Food 
and Drug Administration if there were some negative impacts. We 
would certainly think that a branch of the U.S. Government such 
as the Food and Drug Administration would be concerned if these 
pose that kind of risk and using them for medical devices. 
Would that be an accurate assumption to follow?
    Ms. Rutherford. Yes, Congressman, that would be an accurate 
assumption. These are used in medical devices. Some of my 
fellow witnesses have spoken to that, that these are key 
components in a variety of devices all around us every day to 
enable performance.
    Mr. Keller. Okay. Again, I just want to make sure that when 
we look at anything as Congress, that we follow the science and 
the actual science. And I'll say this, not the political 
science of trying to advance an agenda but the actual science 
of how this impacts the lives of Americans and making sure 
that--while we want to make sure everybody's safe, we have the 
tools and we have the ability to have those tools made 
available, whether it's for low emissions to help our 
environment, whether it's for medical devices to help us look 
for ways that we can be healthier or prevent diseases. We need 
to make sure that we let the science do it and not as Congress 
tell the scientists how to do their jobs.
    So any other government agencies, because it's not just the 
Food and Drug Administration. We also have a government agency 
called OSHA, and they deal with safety of Americans and people 
that work in America.
    So, again, I would just encourage the other members of this 
committee to make sure that we let the actual science dictate 
what we do and not the political science.
    Thank you.
    Mr. Rouda. Thank you.
    The chair now recognizes Representative Hill for five 
minutes of questioning.
    Ms. Hill. Thank you.
    I appreciate my colleague's commitment to science. And I 
would urge us to ensure that those who are funding the science 
are indeed objective, as we know oil companies funded the 
science that denied climate change for many, many years.
    I have to say I'm very glad that these three companies 
decided to show up here today. The country, our groundwater, 
and our people have been poisoned by chemicals made, used, and 
improperly disposed of by the companies in this room. The 
question is who is going to pay for the injuries and the 
cleanup. These companies or the taxpayers?
    And here's one thing that really bothers me. DuPont is 
trying to use corporation law to ensure that they are not on 
the hook for these costs. DuPont spun off its chemical business 
in 2015 into a new independent company, Chemours. And according 
to the complaint Chemours recently--and I'm sorry if I'm not 
pronouncing this right. My French is a little rusty--recently 
filed against DuPont. DuPont then saddled the new company with 
liability costs that were dramatically underestimated at the 
time the spinoff was finalized. Next, DuPont merged with 
another company, Dow Chemical, and then spun off a company that 
they refer to as New DuPont.
    The sole purpose of these corporate restructuring seems to 
be the creation of a legal fiction that someone else is 
responsible for all the documented harms that DuPont 
perpetrated dumping PFAS chemicals into landfills and 
waterways, suppressing the science showing these chemicals were 
toxic, poisoning the drinking water of millions of Americans. 
This strains credulity, and that is putting it mildly.
    DuPont has, in the past, accepted liability for discharging 
PFAS chemicals into the environment which led to serious 
problems, including birth defects, liver and thyroid and kidney 
disease, and cancer. Now, a few years have passed, and there's 
been a spinoff, a merger, and then other spinoffs.
    So, Mr. Roberts, I recognize that you're new with the 
company, but who is now responsible for this contamination if 
not DuPont?
    Mr. Roberts. Congresswoman, to go through your question, 
the DuPont company has changed forms many times over the last 
217 years. The last 10 years is not new and was not constructed 
in some way to avoid liability around the PFAS issue.
    The removal of the fibers business to INVISTA; the spinoff 
of the Axalta business, which is related to our coatings, the 
Performance Chemicals business, which is related to the 
fluorochemicals line of business, which is now called Chemours; 
the creation of the merger with Dow and then the separation, 
was about this company now reemerging as a company that's 
focused on sustainability.
    Ms. Hill. I mean, that's fine. I understand restructuring. 
I mean, I ran an organization. I know how restructures work, 
and that's fine. But who ultimately is responsible if not 
DuPont?
    Chemours didn't exist when this was happening. I mean, they 
came into existence in 2015. So who takes accountability? And 
if corporate law loopholes allow us to put our hands up like 
this, then the only people who are responsible are the American 
taxpayers, because the cleanup has to happen. This to me is a 
nonoption. But who pays for it?
    And as far as I'm concerned, the company that was doing 
this in the first place should be held accountable. But if that 
company doesn't exist through corporate gymnastics, then who 
does pay that bill?
    Mr. Roberts. Okay. Congresswoman, I fully agree with you. 
And in my opening statement, I stated, first, we're fully 
committed to remediating the sites that we own. I also heard, 
as we went through the opening statements, that Chemours has 
very clearly stated that it's committed to doing remediation on 
the site that it now owns.
    Ms. Hill. Well, let's talk about that.
    Mr. Roberts. So I don't believe that either company is 
saying that there's not full commitment to making sure the 
sites that have been owned and operated either currently by the 
company that's called DuPont or the division of DuPont, which 
was Performance Chemicals, which is still operating, which is 
financially viable in every way, shape, and form----
    Ms. Hill. I don't mean to cut you off, but I only have a 
minute left.
    According to the Chemours' complaint against DuPont filed 
this year, there's issues with the estimates of cost cleanups 
near Cape Fear, North Carolina, one of DuPont's legacy sites. 
The estimate was that it would be approximately $2 million in 
cleanup. Chemours later learned that the actual cost of the 
cleanup would be somewhere around 200 million, and that's a 
huge difference in terms of estimates. And then--I'll jump 
really quickly. I guess what it boils down to is that if 
Chemours doesn't have the money to pay the victims for all 
their injuries and to clean up all the contamination, then what 
happens? Is it DuPont's argument that taxpayers should pay and 
not DuPont? Who's responsible?
    Mr. Roberts. Congresswoman, we don't believe the taxpayers 
should pay. What I would say, when we hear the statement that 
Chemours then later found out, is that the individuals that 
were running the sites, the individuals that were developing 
the products, the individuals that ran this business related to 
the sites that were fully aware of the financials of the 
business, fully aware of the liabilities and profits and 
understood what it was taking with it, are the same individuals 
that sit and run Chemours today.
    Ms. Hill. But there's the $2 million estimate versus the 
$200 million estimate. That doesn't quite track. And I'm out of 
time. But I would--maybe you can respond to that in writing 
after the fact.
    Mr. Roberts. We would be glad to.
    Ms. Hill. Yielding back.
    Thank you.
    Mr. Rouda. Thank you.
    The chair now recognizes Representative Comer for five 
minutes of questioning.
    Mr. Comer. Thank you.
    Dr. Rutherford, I think it would be good for everyone to 
know how 3M got into the PFAS business to begin with. I know in 
your testimony you mention relationships with the Navy and with 
firefighting foam. But can you briefly tell us how that 
relationship began?
    Ms. Rutherford. Yes, Congressman. Thank you for the 
question. We were involved in the development very early on of 
fluorochemical surfactants. And that was research that we had 
engaged in early days. We also had a patent that was purchased 
from a university that gave us technology in that area as well.
    And then after the aircraft carrier fire in--of the 
Forrestal, where our military personnel lost many, many lives, 
many of their lives were lost, the Navy put out a request for 
an improved firefighting system for ships. 3M was one of the 
companies engaged in that research that resulted in the Navy 
winning a patent for the--and writing the first specifications 
for the firefighting foams. And 3M was one of the suppliers in 
the early development and then through several--many, many 
years.
    Mr. Comer. Okay. I'm going to jump around here.
    Mr. Roberts, in your statement, you said that DuPont will 
no longer use any long-chain PFAS in, quote, recently 
integrated operations. Can you explain a little bit more what 
that exactly means?
    Mr. Roberts. That's correct. Congressman, we recently, as 
part of the spinoff from the Dow Company, acquired a business 
that, as part of it, had one product that used a long-chain 
material. As with the Dow changes--and it will continue to do 
in the future. Any time that we acquire something, if there's 
anything that's long-chain, that's included within that 
portfolio, then we will immediately look to eliminate it, 
because we're going to stand by our commitment not to use those 
materials, but--which might be even more important is, not only 
are we fully committed to not participating in long-chain 
chemistry, but our biggest footprint around those materials is 
actually around our firefighting foams.
    So our commitment is that we will, by the end of 2021, is 
to completely stop the use of PFAS-related firefighting foams 
at our sites. We have already stopped using PFAS firefighting 
foams for training. Any time that a PFAS-related firefighting 
foam is used to prevent or in the mitigation of a real event, 
we collect that material so that it doesn't go to soil--or to a 
water body. And we believe that the industry is now ready. And 
we have been working with companies both in the Americas and in 
Europe on a generation of firefighting foams that we're 
comfortable for our uses can be used to replace PFAS chemicals, 
even those that are not long-chain.
    So our biggest footprint is around our firefighting foams. 
We're fully committed to removing that footprint by, not only 
getting out of long-chain, but also getting out of all PFAS-
related firefighting foams across all of our sites worldwide.
    Mr. Comer. And I've stated this in a previous hearing that 
we had on this subject, but the Kentucky firefighters' union 
came to my office and were very concerned about that. They 
obviously are concerned about their safety, as I'm sure every 
Member of Congress is, and that was an important component. So 
that's good to hear.
    They were concerned about their safety, because the PFAS 
helps put out fires quicker than----
    Mr. Roberts. Correct.
    Mr. Comer [continuing]. than just normal water.
    Mr. Roberts. But I agree that--normal water. But I think 
what we see now is a new generation of foams, which though I'm 
sure will have their own issue, are not biopersistent. So they 
are made up of alcohols or proteins which don't have that 
issue. And we now have a generation we think are just as 
effective as PFAS-related materials. So we are working with 
those companies. As we are focused on sustainability, we think 
we can develop a roadmap that other companies can then follow 
once we work with these companies to develop this line of 
chemistry. We'll remove this issue that we've heard across the 
country is really firefighting foams, so we're focused on 
addressing that issue.
    Mr. Comer. Good.
    Mr. Kirsch, I'm curious, are the people running Chemours' 
business today the same people who ran it when it was a part of 
DuPont?
    Mr. Kirsch. No, they're not, Congressman. I think that was 
a slight misrepresentation. So on my staff, I run the 
fluoroproducts business, as I mentioned in my opening 
statement. My staff consists of 12 folks, three of which have 
any--anything to do with the previous DuPont fluoropolymers 
business. The rest are either new to the company or had no 
previous experience in fluoropolymers.
    To the best of my understanding, the way that the spin 
document was created, the current Chemours leadership, anyone 
that was there at DuPont at the time, was not involved in the 
creation of that document. So to suggest that there was 
information and the ability to dictate those terms I think is 
just false and, hence, the complaint.
    Mr. Roberts. If I may.
    Mr. Comer. Yes.
    Mr. Roberts. The gentleman who was the executive vice 
president of the fluorochemicals business and had been so since 
2008 is now the CEO of Chemours. So I just want to be clear 
here that so we can truly accept the areas where we're going to 
focus that we can focus on remediating the sites that we own 
and that Chemours does the same. But I don't want to really sit 
here and go back and forth, because it doesn't make sense. But 
I don't want to be in a shell game.
    When the head of the business is now the CEO, it's clear 
that there's ownership. And an individual who was a part of 
those discussions who the scientists work for and is currently 
running Chemours, it makes it very difficult to say we don't 
know anything about it before 2015.
    Mr. Kirsch. I'm sorry. I need to comment on this.
    Yes, Mr. Vergnano is the CEO of Chemours. Mr. Vergnano was 
part of the DuPont company. I find it interesting that any 
request I've ever made to address sustainability issues or 
issues of remediation, which we are taking significant action 
and we made significant commitments, ambitious commitments one 
year ago, Mr. Vergnano has approved every single one of those. 
I'm having trouble bridging this.
    Mr. Comer. Thank you. I yield back.
    Mr. Rouda. The chair now recognizes Representative Sarbanes 
for five minutes of questioning.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thanks for convening 
this hearing on an important topic.
    So that last exchange was pretty enlightening, I think. The 
fact that you have two major corporations now pointing fingers 
at each other, and that's exactly what was just happening, it 
shows a couple things. There's something wrong with these 
chemicals. That's an acknowledgment implicitly in that finger-
pointing that we just saw. And, second, both companies know 
that there's a significant amount of legal liability and 
accompanying financial liability associated with these 
chemicals and how they were handled. And everybody's trying to 
get in front of that, I can see.
    I want to come back for a moment, Ms. Rutherford, to your 
testimony previously about the responsible science policy 
coalition, which I understand 3M is a member of or has helped 
to fund. And they have concluded, among various studies they've 
done, quote, the weight of scientific evidence does not show 
that PFOA or PFOS caused health effects in humans. And you were 
asked about that, whether you agree with that or you don't 
agree with that, and I think you said you do agree with it.
    Ms. Rutherford. Congressman, that's correct. I do agree 
with that statement.
    Mr. Sarbanes. Talk to me about that. How can you agree with 
this statement after all of the testimony that's come forward 
and the litigation and otherwise that there are no health 
effects in humans from PFOA or PFOS? I just want to get into 
your head for a second, because on its face, it seems to me 
that goes against the weight of the evidence, testimony, 
documents that have been presented for years when it comes to 
the impact of those chemicals.
    Ms. Rutherford. Congressman, if I may.
    Mr. Sarbanes. Yes, go ahead.
    Ms. Rutherford. Again, it is the complete understanding of 
how the testing is done, the analytics, the approach to 
understanding this. I do appreciate that links and associations 
are indicated in those scientific studies. However, every study 
I've read, and I've read many, many of these studies, calls for 
additional work, because there are a lot of inconsistencies in 
the data. Establishing a human health impact is a very complex 
thing. And we----
    Mr. Sarbanes. You know that back in, I guess, 1981 there 
was a memorandum inside 3M saying that, as a precautionary 
measure, approximately 25 women of childbearing potential have 
received job reassignments at the 3M Decatur plant so they will 
not be exposed to a type of flurorchemical that can cause birth 
defects in rats.
    So I guess are you saying, well, it causes birth defects in 
rats, but that's not conclusive as to human effects? 
Nevertheless, there was a reassignment of 25 childbearing 
women. Are you aware of that testimony and document?
    Ms. Rutherford. Congressman, I am indeed aware of that 
testimony and that study. What I'd like to share with you is I 
felt that was a measure of very strong responsibility on our 
part. There was a study conducted in which we observed some of 
these birth defects. What we found also, though, is that this 
was an inaccurate study. The way the fetus was dissected was 
not repeatable. We shared these information with the EPA.
    And the way we discovered that, Congressman, is that it 
showed up in the control group. The same issue that was found 
in the exposed population of the animals showed up in the 
control group with no exposure. So we were--that showed----
    Mr. Sarbanes. So on the one hand--I mean, I get your point 
here. You're trying to put a context around that particular 
information. And that's fair, to a point. But there's a lot of 
other information and evidence that has come forward, which 
really belies the statement and the conclusion that was reached 
by this responsible science policy coalition which, as far as I 
can tell, is just a whitewash operation. I mean, it's sort of, 
you know, everybody's going to be okay coalition. But I don't 
think that there's good science behind that, from what we've 
seen.
    The fact of the matter is the chemical industry has a 
tremendous amount of power, influence, resources. And they have 
deployed that for decades against the interests of the average 
person out there. They've done it with lobbyists. They've done 
it with campaign contributions. They've done it by buying 
studies that then masquerade as science. And this continues to 
go on. We have a responsibility here to push back against that, 
and we're not going to give up until we've done that.
    I appreciate your coming here today, but this is the 
beginning of a continuing inquiry into the harmful effects of 
these chemicals.
    And with that, I yield back.
    Mr. Rouda. Thank you.
    The chair now recognizes Representative Wasserman Schultz 
for five minutes of questioning.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Last year, the Union of Concerned Scientists released a 
report detailing PFAS contamination at 131 military facilities 
across the United States. At 90 percent of these sites, PFAS 
concentration was 10 times higher than CDC's Agency for Toxic 
Substances and Disease Registry, ATSDR, risk levels, which 
itself is much lower than the EPA's current health advisory. 
Two-thirds of these sites were at least 100 times the ATSDR 
risk level.
    I'd like the panel to consider this: At Patrick Air Force 
Base in Brevard County, Florida, PFAS contamination was found 
to be 4,338,000 parts per trillion. That's the level that was 
detected. That is 390,909 times the risk level.
    Many servicemembers have developed cases of Hodgkin's 
lymphoma and other cancers. These chemicals were used at about 
400 U.S. military installations, as we have discussed here 
today.
    Ms. Rutherford, what are 3M's plans for compensating 
servicemembers and veterans that were exposed to these 
chemicals, chemicals that your company had determined as 
harmful to human health?
    Ms. Rutherford. Thank you for the question, Congresswoman. 
As we transformed our own product portfolio and phased out of 
the chemicals that are part of AFFF, we discontinued that 
product. We have, nevertheless, continued to work with the 
Department of Defense to understand the safe use of these 
materials and the remediation. The remediation needs around 
these bases do need to be addressed.
    Ms. Wasserman Schultz. Remediation is not what I'm asking 
you about. What I'm asking you about is what plans do you have 
to compensate servicemembers and veterans that were exposed to 
these chemicals that you were aware were harmful to human 
health?
    Ms. Rutherford. Again, Congresswoman, the studies we have 
do not indicate at the levels of exposure in the environment in 
the past or today that adverse human health effects exist. We 
are, however, continuing our studies, and we will work 
proactively with scientific bodies. It's not only me, 
Congresswoman. It is every--a lot of other government agencies, 
our own ATSDR, Australia, Canada, Germany, the weight of 
scientific evidence is there. We do agree additional study is 
required.
    Ms. Wasserman Schultz. I'm sorry, that's just not--that 
doesn't conform with what information I know that we've been 
given about 3M's awareness of the harmful effects of these 
chemicals.
    You began working with the Navy on developing your 
firefighting foam in the sixties. At what point did you convey 
the research that you had done and the knowledge of the 
products harmful effects to DOD? My understanding is that you 
do and were and withheld information about its harmful effects, 
and I want to know if you ever advised DOD that it should stop 
the use of the foam based on that awareness.
    Ms. Rutherford. Congresswoman, as we became aware of the 
potential of bioaccumulation of some of the materials of these 
foams, that communication did indeed happen. So we've been 
proactive in sharing that information, the risk of 
bioaccumulation. And that's why we phased out of those two 
particular materials at the time more than 12 years ago.
    Ms. Wasserman Schultz. Okay. These chemicals have been 
significantly contaminating our servicemen and servicewomen, 
yet DuPont worried, in its 2009 SEC annual filings, that 
approximately--and this is a quote--$1 billion of 2009 revenues 
could be affected by any such regulation or prohibition of 
PFOA, while the company stated in the same report, DuPont 
believes that PFOA exposure does not pose a health risk to the 
general public.
    Did DuPont care more about its bottom line than about our 
men and women serving in the Armed Forces? And why have your 
companies, all of your companies been fighting against 
additional regulation of PFAS chemicals even though our 
servicemembers who have come into contact with firefighting 
foam or tainted groundwater are suffering from illness?
    Mr. Roberts. Congresswoman, first of all, as I stated in my 
opening, we're not here standing in the way of regulation. We 
support very clearly the line items that are included as part 
of the NDAA. So we're here to be cooperative. We're here to 
support. I think the things that this Congress is talking about 
in understanding what type of legislation would really help to 
drive this--the situation in the right direction.
    So to start there, clearly requiring the EPA to set a 
national primary drinking water regulation for PFAS under the 
Safe Drinking Water Act within two years is something that 
we're here to support, as well as other line items on the NDAA.
    Ms. Wasserman Schultz. I'm glad that you have taken this 
position now. But that was clearly not your position 
previously. Previously, your company did oppose regulation of 
these chemicals and maintained that you would lose a billion 
dollars of revenue in 2009 if there was any such regulation, 
and kept the information about its harmful effects from the 
public. Isn't that correct?
    Mr. Roberts. I don't know that to be the case, 
Congresswoman.
    Ms. Wasserman Schultz. Well, I'm reading to you from words 
that were put out by your own company in a report.
    Mr. Roberts. Okay. What I can tell you is what we believe 
today. What I can tell you is that we're here to support, in a 
proactive way, legislation that we think will drive this 
situation in the right direction.
    Ms. Wasserman Schultz. Does DuPont have plans to compensate 
servicemembers who have been harmed by exposure to these 
chemicals?
    Mr. Roberts. Congresswoman, the DuPont company that I 
represent, and I believe what I also read in the Chemours 
statement, was that AFFF, or foams related to this issue, were 
not materials that were made by DuPont. They're not now, and I 
don't believe that was the case in the past at all. But I would 
refer that to the gentleman from Chemours to respond to as 
well.
    Ms. Wasserman Schultz. Mr. Chairman, I know my time is 
expired. But if the gentleman from Chemours could respond, that 
would be helpful.
    Mr. Kirsch. Yes. Thank you, Congresswoman.
    Chemours has never manufactured, sold, or formulated 
firefighting foams. I believe the issue--question is 
specifically around PFOS and PFOA. Neither one of those 
Chemours has ever used. So at this point, I'm not sure what 
else I could possibly add to the conversation.
    Ms. Wasserman Schultz. Are any of your companies that were 
responsible for using any of these chemicals that firefighters 
and military servicemembers were exposed to planning any type 
of compensation to harmed victims? That's a question for all 
three of you.
    Mr. Roberts. At this point, the DuPont company is focused 
on cleaning up and remediating the sites which we operate, 
that's our focus, as well as reducing the amount of 
firefighting foam that we use in our sites. But that's the 
limit of where we're focused at this time.
    Ms. Wasserman Schultz. So no?
    Mr. Roberts. We are focused on what we--what's within our 
control.
    Ms. Wasserman Schultz. No. Yes or no? Yes or no?
    Mr. Roberts. We'll continue to focus on what's within our 
control.
    Ms. Wasserman Schultz. That's not a yes-or-no answer. Yes 
or no, are you planning, at any point, at compensating people 
who have been harmed by your company's chemicals?
    Mr. Roberts. Congresswoman, you're speaking specifically to 
armed forces around the world----
    Ms. Wasserman Schultz. I'm speaking specifically to any--to 
this issue specifically.
    Mr. Roberts. Yes. We are focused on working through----
    Ms. Wasserman Schultz. Okay. The other two people, if you 
could answer, please.
    Mr. Kirsch. Yes.
    Ms. Wasserman Schultz. The answer is no. Let the record 
reflect that the gentleman essentially said, no, there are no 
plans.
    Mr. Kirsch. Again, we have not been involved in PFOA or 
PFOS, which I think are the----
    Ms. Wasserman Schultz. So your answer is also no?
    Mr. Kirsch. Correct.
    Ms. Rutherford. Congresswoman, we have been actively 
engaged in our communities over many, many years conducting 
remediation----
    Ms. Wasserman Schultz. Yes or no? Are there any plans that 
3M has to compensate victims who have been damaged by your 
chemicals?
    Ms. Rutherford. I will reiterate my statement, 
Congresswoman, that our evidence does not indicate that anyone 
was--adverse human health effects were caused by these foams.
    Ms. Wasserman Schultz. That's not----
    Ms. Rutherford. Nevertheless, we're actively engaged with 
the DOD.
    Ms. Wasserman Schultz. That's not actually accurate in 
terms of the documents and the information that has been 
provided to the committee and to the military. Thank you. I 
yield back the balance of my time.
    Mr. Rouda. Thank you. The chair now recognizes myself for a 
line of questioning.
    Let me start with Mr. Roberts. I thought your comment that 
the spinout of Chemours had nothing to do with reducing the 
liability of DuPont was patently false. We know that boards and 
executive management teams often spend time trying to figure 
out how to reduce liabilities. And I'm quite certain that 
DuPont, with its in-house attorneys and experts, figured out 
the best way to reduce the liability here was to spin it out to 
Chemours.
    And that leads me to you, Mr. Kirsch. How much money was 
given to Chemours when it was started and spun out to address 
these liabilities?
    Mr. Kirsch. Mr. Chairman, I don't have the exact figure in 
my head in terms of what the accrual would be. I mentioned 
the--I mentioned the North Carolina case, the 2 million----
    Mr. Rouda. I'm talking, when you were spun out, were you 
given a basket of assets to address the studies that DuPont had 
done to ascertain the potential liability they were going to 
have? Were you given money to address it?
    Mr. Kirsch. I'm not sure exactly how much money might have 
been accrued, but there were maximum liabilities that were 
estimated, and I believe an accrual was set forth for that.
    Mr. Rouda. And, of course, the maximum liabilities have 
shown to be extensively beyond that. I think you said at one 
point it's a hundred times greater than what was anticipated.
    Mr. Kirsch. That's correct.
    Mr. Rouda. And, Ms. Rutherford, I'm deeply confused. You 
said, and I want to make sure I understand this, no one has 
been harmed by any PFAS chemicals that you're aware of?
    Ms. Rutherford. Congressman, what I did say----
    Mr. Rouda. That's a yes or no. Come on. I don't need a long 
speech. Yes or no?
    Ms. Rutherford. We have no definitive cause-and-effect 
relationship for----
    Mr. Rouda. Great. So your point is no one in America right 
now, no one, has been a victim of any PFAS chemicals, all 
5,000, including PFOA and PFOS. That is your position.
    Ms. Rutherford. We state that the majority evidence does 
not indicate that--that to be true, sir.
    Mr. Rouda. Then why the hell do you care there's been a 70 
percent reduction in PFAS levels if it doesn't affect anyone?
    Ms. Rutherford. Because we know these are concerns of our 
colleagues, the people in our communities, and all of us. We 
all want to have confidence in our drinking----
    Mr. Rouda. Damn right, because you guys have internal memos 
that show that it impacts people, impacts your workers. You've 
made changes in how you had those workers conduct their 
activities. You have internal memos showing how devastating 
these chemicals can be to certain individuals that become 
exposed to it, yet you also stated earlier that you deny 
knowing about those internal memos?
    Ms. Rutherford. No, I don't believe so.
    Mr. Rouda. I thought Representative Ocasio-Cortez asked you 
what knowledge you had of coverup of information by 3M, and you 
stated, I believe, to the effect that you've been completely 
transparent and you're not aware of those situations. Is that 
incorrect? You are aware of the memos?
    Ms. Rutherford. I believe the conversation, Chairman----
    Mr. Rouda. Let me ask the question. Are you aware of memos, 
internal documentation at 3M showing clearly concerns about the 
hazardous aspects of exposure to these chemicals both by 
workers of 3M as well as the general public? Are you aware of 
any documentation within 3M to that effect?
    Ms. Rutherford. There are studies, Chairman, that indicate 
there are effects at extremely high doses as a result of our 
own scientific inquiry. That is a part of the evidence that we 
have. At extremely high doses in respect to how we 
commercialize our new products to ensure the safety----
    Mr. Rouda. How do you define high doses? What would that 
be? Parts per trillion of what?
    Ms. Rutherford. Oh, no. This would be in parts per hundred. 
So this is a very, very different order of magnitude. Many, 
many thousands of times higher than what you would be exposed 
to in the environment.
    Mr. Rouda. I see. So what we've seen when witnesses 
previously coming in here who have been exposed to those levels 
who have significant health hazards, health outcomes, you would 
suggest it has nothing to do with the class of PFAS chemicals. 
It has something to do with some other item.
    Mr. Roberts, I want to ask you. You stated earlier that you 
would support PFOS and PFOA being covered by the Superfund. Is 
that correct?
    Mr. Roberts. That's correct.
    Mr. Rouda. Mr. Kirsch, would you as well?
    Mr. Kirsch. I'm not the expert on the two compounds or the 
legislation or the--and the process. It sounds like the EPA has 
enough information to make a decision.
    Mr. Rouda. So your answer is no at this time?
    Mr. Kirsch. I think the EPA has enough information to make 
the decision, and I think that that's the decision they should 
make. And I think if they don't, I'm assuming that you'll----
    Mr. Rouda. Okay. Ms. Rutherford?
    Ms. Rutherford. Yes, Chairman. We believe the EPA should be 
allowed to use its process to make that decision.
    Mr. Rouda. Mr. Roberts, if I understand things correctly, 
there's 5,000 chemicals under the heading of PFAS. The long-
chain seem to be the ones that most people would agree are bad 
for our health.
    Besides PFOS and PFOA, of the other 5,000 chemicals under 
the class of PFAS, how many of them are long-chain, roughly? In 
other words, it's not just those two, correct?
    Mr. Roberts. No, it's not just those two. If we think about 
the chemicals which were identified under TRI, it was PFOA, 
PFOS, and about 22 other companies that were considered in that 
group that we talked about reporting under TRI. That's the 
group that I think that we're talking about. That's why it's--
--
    Mr. Rouda. Thank you. So you answered my next question.
    So based on what we know with long-chain, all long-chain 
compounds should fall under the Superfund, correct?
    Mr. Roberts. That group would be acceptable. It's still a 
very small subgroup. They're all--have that--the issue of being 
biopersistent. So if it was just those two or slightly larger 
group, you know, I think that's something that could be 
determined by Congress.
    Mr. Rouda. I've submitted legislation to support a trust 
fund to finance an EPA administrative fee on PFAS manufacturers 
designed to raise at least $2 billion per year sufficient to 
cover 25 percent of what we know we need in operation and 
maintenance costs associated with PFAS and predominantly PFOA 
and PFOS.
    Would any of you three support legislation along those 
lines to hold manufacturers responsible for helping create a 
trust fund to address these cleanups?
    Mr. Roberts. Congressman, for today we focused on the 
sections that were under the NDAA only because we knew that was 
a current issue on the Hill. But we'd be more than happy to 
followup with your office to understand more and have a 
discussion on that. We'd be more than happy to have that 
discussion.
    Mr. Rouda. Mr. Kirsch?
    Mr. Kirsch. Mr. Chairman, we're spending tremendous amounts 
of money to virtually eliminate the emissions of PFAS from all 
of our facilities, tremendous amounts of money. I guess I would 
also be inclined to work together with your office to 
understand better what this mechanism looked like.
    Mr. Rouda. I also note that your lobbying efforts have also 
increased by 123 percent. I assume that's in an effort to 
address this issue in a way that is most satisfactory to 
Chemours?
    Mr. Kirsch. I honestly don't know what the lobbying budget 
is for the company.
    Mr. Rouda. Ms. Rutherford?
    Ms. Rutherford. Yes, Chairman. We're very interested in 
being involved in additional testing and remediation 
discussions, and we'd be glad to work with your office to 
understand exactly that intent.
    Mr. Rouda. Well, I'd like to thank all of you for coming in 
today. I know there's been some tough questions. And I'm a 
little frustrated, because I do feel like there's a little bit 
of round robin here and an unwillingness to fully embrace the 
obligations that companies have to the trust of the American 
public when it comes to addressing matters of our health and 
our safety, yet I also see some potential light.
    And I appreciate, Mr. Roberts, your commitment on behalf of 
DuPont to see some of these chemicals under PFAS be brought 
into the Superfund oversight.
    And at this time, the chair would like to recognize 
Representative Wasserman Schultz for additional questions.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. I 
appreciate it. Referring back to PFAS being one of the biggest 
sources of contamination in the Department of Defense's use of 
PFAS containing firefighting foam, the Department has resisted 
cleaning up the contamination that it caused and argues that 
PFAS has not yet been designated a hazardous substance under 
the Superfund law. Making the Superfund designation would also 
free up EPA funding and other resources to help cleanup 
civilian sites critical to us addressing this remediation that 
you're referring to.
    Even former EPA Administrator Scott Pruitt said a year and 
a half ago that EPA would designate some PFAS chemicals to be 
hazardous substances under the Superfund law. But I know I 
don't have the confidence that EPA is going to propose a rule 
that takes that step, let alone finalize one.
    So to the panel, and I would like a straight yes or no 
answer, do you agree that legacy PFAS chemicals like PFOA and 
PFOS should be designated as hazardous substances under the 
Superfund law?
    Ms. Rutherford?
    Ms. Rutherford. Congresswoman, we do not believe that is 
the case. The EPA should make----
    Ms. Wasserman Schultz. So no? No?
    Ms. Rutherford. At this time, based on the science, we--
we're not policymakers, ma'am. We cannot make that assessment 
for the United States.
    Ms. Wasserman Schultz. No. Yes or no?
    Ms. Rutherford. No.
    Ms. Wasserman Schultz. Okay. Thank you.
    Mr. Kirsch. I'm not the expert.
    Ms. Wasserman Schultz. I realize you're not the expert. Yes 
or no, do you believe that PFAS chemicals like PFOA and PFOS 
should be designated as hazardous substances under the 
Superfund law?
    Mr. Kirsch. I think the EPA has all the information they 
need, based on what I've heard.
    Ms. Wasserman Schultz. I'm not asking whether--that 
question. I'm asking you if your company's position is that it 
should be designated as a hazardous substance under the 
Superfund law.
    Mr. Kirsch. Congresswoman, I appreciate the line of 
questioning, but with all due respect, that's as much as I can 
answer.
    Ms. Wasserman Schultz. So you won't answer the question? 
You're refusing to answer what your company's position is----
    Mr. Kirsch. I think the EPA----
    Ms. Wasserman Schultz.--on whether or not----
    Mr. Kirsch. Sorry.--the EPA has all the information they 
need.
    Ms. Wasserman Schultz. You're refusing to answer the 
question. You will not answer yes or no on whether or not your 
company believes that these chemicals should be designated as 
hazardous substances under the Superfund law. You're refusing 
to answer the question. Is that correct?
    Mr. Kirsch. The answer would be no.
    Ms. Wasserman Schultz. You don't think so?
    Mr. Kirsch. I think the--again, the EPA has----
    Ms. Wasserman Schultz. You don't think that designation 
should be made?
    Mr. Kirsch. The EPA has all the information that they need.
    Ms. Wasserman Schultz. And so your answer is no. Is that 
what you're saying? No?
    Mr. Kirsch. I said the EPA has all the information they 
need to----
    Ms. Wasserman Schultz. So you're--are you refusing to 
answer or are you saying no?
    Mr. Kirsch. I think I did answer the question.
    Ms. Wasserman Schultz. No, you didn't. Yes or no to my 
question.
    Mr. Kirsch. Again, the EPA has----
    Ms. Wasserman Schultz. That's not yes or no. So essentially 
you're refusing to answer.
    Mr. Roberts?
    Mr. Roberts. Congresswoman, for PFOA and PFOS, our answer 
is yes.
    Ms. Wasserman Schultz. Okay. Thank you very much.
    During the subcommittee's July hearing on PFAS and 
industrial contamination, Emily Donovan, who lives in a 
community plagued by water laced with several PFAS chemicals 
called on all PFAS chemicals to be designated as hazardous 
under the Superfund law. And I agree with Ms. Donovan.
    Mr. Chairman, I'd like to enter into the record a letter 
that was signed by 162 House members asking the NDAA conference 
to regulate all PFAS chemicals.
    And to the panel, if you want this subcommittee, this 
Congress, and the American public to believe that you are ready 
to take your obligation to clean up these chemicals seriously, 
this is your moment.
    Do any of you agree--hopefully all of you agree--that all 
PFAS should be designated as hazardous under the Superfund law?
    So far, I've gotten a no and a refusal to answer and a yes, 
so----
    Mr. Roberts. Congresswoman, my yes was for PFOA and PFOS. 
The biopersistent long-chains, I do not agree that that's the 
right statement for the entire class of 6,000 chemicals.
    Ms. Wasserman Schultz. Okay.
    Mr. Roberts. So my answer was very specific to PFOA and 
PFOS.
    Ms. Wasserman Schultz. To those two chemicals.
    Mr. Roberts. Correct.
    Ms. Wasserman Schultz. Thank you.
    To those of you that have disagreed or refused to answer, 
you are playing a part in this national emergency. You have 
sickened our first responders and our members of our military, 
and I don't know how you sleep at night.
    Thank you. I yield back the balance of my time.
    Mr. Rouda. Thank you.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair which will be forwarded to the 
witnesses for their response. I ask our witnesses to please 
respond as promptly as you are able.
    This hearing is adjourned. Thank you.
    [Whereupon, at 5:20 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
